<html>
<title> - YUCCA MOUNTAIN PROJECT: DIGGING FOR THE TRUTH?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
             YUCCA MOUNTAIN PROJECT: DIGGING FOR THE TRUTH?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON THE FEDERAL WORKFORCE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2005

                               __________

                           Serial No. 109-89

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-819                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on the Federal Workforce and Agency Organization

                    JON C. PORTER, Nevada, Chairman
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
TOM DAVIS, Virginia                  MAJOR R. OWENS, New York
DARRELL E. ISSA, California          ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas                    Columbia
PATRICK T. McHENRY, North Carolina   ELIJAH E. CUMMINGS, Maryland
------ ------                        CHRIS VAN HOLLEN, Maryland

                               Ex Officio
                      HENRY A. WAXMAN, California

                     Ron Martinson, Staff Director
                Shannon Meade, Professional Staff Member
                            Reid Voss, Clerk
          Mark Stephenson, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 29, 2005....................................     1
Statement of:
    Arthur, W. John, III, Deputy Director, Office of Repository 
      Development, Office of Civilian Radioactive Waste 
      Management, Department of Energy...........................    38
    Hevesi, Joseph, U.S. Geological Survey.......................    13
Letters, statements, etc., submitted for the record by:
    Arthur, W. John, III, Deputy Director, Office of Repository 
      Development, Office of Civilian Radioactive Waste 
      Management, Department of Energy, prepared statement of....    41
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    29
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, article dated March 10, 2004............     9
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    62
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................     5
    Reid, Hon. Harry, a Senator in Congress from the State of 
      Nevada and Ensign, Hon. John, a Senator in Congress from 
      the State of Nevada, prepared statement of.................    60


             YUCCA MOUNTAIN PROJECT: DIGGING FOR THE TRUTH?

                              ----------                              


                        WEDNESDAY, JUNE 29, 2005

                  House of Representatives,
      Subcommittee on Federal Workforce and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:12 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jon C. Porter 
(chairman of the subcommittee) presiding.
    Present: Representatives Porter, Davis, Marchant, Mica, 
Issa, Cummings, and Norton.
    Staff present: Ron Martinson, staff director; Chad Bungard, 
deputy staff director and chief counsel; Shannon Meade, 
professional staff member; Patrick Jennings, senior counsel and 
OPM detailee; Reid Voss, clerk/legislative assistant; Mark 
Stephenson and Tania Shand, minority professional staff 
members; and Teresa Coufal, minority assistant clerk.
    Mr. Porter. We welcome everyone here today. As you know, 
there is a quorum present. The subcommittee on the Federal 
Workforce and Agency Organization will come to order.
    Today marks the second hearing this subcommittee has held 
with regard to its investigation into allegations that Federal 
employees have falsified documents relating to the Yucca 
Mountain Project, a major public works project that carries 
with it the possibility of wide-ranging ramifications.
    As I have highlighted before, there is no question that 
issues surrounding the Yucca Mountain Project are of paramount 
importance to my constituents and the rest of the citizens of 
Nevada.
    My critical feelings about the project in and of itself 
from day one are well known. I do not need to repeat them at 
this point. But as chairman of the subcommittee, my 
constituency now reaches a much broader scope. In my role as 
chairman I represent the Nation's concerns when it comes to 
Federal employee issues and it is the subcommittee's 
responsibility to examine all aspects of Federal employee 
behavior and management issues.
    Under this responsibility, the subcommittee has recently 
examined allegations of management and ethics concerns among 
high level Federal scientists at the National Institute of 
Health and allegations of mismanagement at the Office of 
Special Counsel.
    We are now faced with a similar challenge. The 
investigation of alleged misconduct and mismanagement at the 
Yucca Mountain Project is particularly important in that it 
carries potential catastrophic consequences and therefore 
demands close subcommittee attention.
    At the last hearing I noted in my opening statement that 
there are many questions yet to be answered. Since that time 
the subcommittee has launched into a full and thorough 
investigation into the allegations of employee misconduct and 
agency mismanagement.
    Staff has interviewed many of the key Department of 
Interior employees involved and has pored over many documents, 
spending literally hundreds of hours.
    I wish I could say that the investigation of this matter is 
going smoothly and the investigative staff is getting to the 
bottom of the truth. There are, however, still a lot of 
questions yet to be answered.
    The main reason for the continued unanswered questions is 
that an employee at the center of the allegations, Joseph 
Hevesi, has refused to meet with the investigators. Countless 
efforts have been made to meet privately with Mr. Hevesi to 
examine the context and intent of the e-mails he authored that 
seemed to call into question the legitimacy of the science 
surrounding the storage of nuclear waste at Yucca Mountain.
    Without access to Mr. Hevesi, the investigation into the 
truth of what took place has been hampered. To say that Mr. 
Hevesi is a critical component of the subcommittee's 
investigation is an understatement.
    Please allow me to highlight a few of the e-mails that Mr. 
Hevesi has drafted.
    E-mail dated 12-17-1998, ``Like you've said all along, the 
Yucca Mountain Project has now reached a point where they need 
to have certain items work, no matter what. The infiltration 
maps are on that list. If the USGS can't find a way to make it 
work, Sandia will. But for now they are definitely counting on 
us to do the job.''
    E-mail dated 12-18-1998, ``The bottom line is forget about 
the money. We need a product or we're screwed and will take the 
blame. Everybody will say that they told us to go ahead without 
a plan or budget in place. This is now CYA and we had better be 
good at it.''
    E-mail dated 10-29-1998, ``Wait till they figure out that 
nothing I've provided them is QA,''--quality assured. ``If they 
really want the stuff they'll have to pay to do it right.''
    E-mail dated 3-15-99, ``Now I'm going to give you the 
inside scoop. I'm going to continue the regional modeling, even 
if it means ignoring direct orders from Yucca Mountain Project 
management. I have a pretty clear vision of the type of work 
that needs to be done to stay alive for the long haul and it 
very definitely involves getting product out there for the user 
and the public to see.''
    E-mail dated April 22, 1999, ``Here's the weird news: To 
get this milestone through Quality Assurance, I must state that 
I've arbitrarily selected the analog sites. So, for the record, 
seven analog sites have been arbitrarily randomly selected. 
Hopefully, these sites will, by coincidence, match the sites 
you have identified. P.S., please destroy this memo.''
    E-mail dated April 23, 1999. ``I am thinking that if I want 
to remain a viable player on the Yucca Mountain Project, which 
may translate to continued funding, I need to show that we can 
get the job done and provide the modelers with the results that 
they need.''
    E-mail dated November 15, 1999, ``In the end I keep track 
of two sets of files: The ones that will keep Quality Assurance 
happy and the ones that were actually used.''
    A plain reading of the e-mails not only suggests that Mr. 
Hevesi falsified data used in water infiltration modeling at 
the project, but also casts reasonable doubt on the soundness 
of the science relied upon to justify the project's continued 
existence.
    That is why it is absolutely essential that the 
subcommittee be able to examine Mr. Hevesi and find out the 
truth behind the e-mails he has authored.
    Mr. Hevesi is here today, but unfortunately not 
voluntarily. He was compelled to be here today by a 
congressional subpoena.
    This is not the way I like to conduct business. However 
when an individual, especially a central figure in our 
investigation, refuses to meet with congressional staff 
privately, there is no other alternative without shutting down 
the investigation.
    With so much at stake in terms of the safety of Americans 
and billions of taxpayers' dollars, this investigation must go 
on without delay and without further interference.
    I sincerely hope that Mr. Hevesi will do the right thing 
today and answer all of the questions directed to him by the 
members of the subcommittee and not choose to invoke his fifth 
amendment privilege during questioning.
    I am also looking forward to hearing the Department of 
Energy witness, Mr. John Arthur, today. Since the 
subcommittee's first hearing, the Department has been 
uncooperative in the subcommittee's efforts to obtain documents 
relating to the investigation. It has consistently denied the 
subcommittee's requests to meet with key Department officials 
for their interviews.
    Almost 3 months after one of the subcommittee's various 
requests, the Department of Energy made a halfhearted last-
ditch effort last Friday to appease the subcommittee, stating 
that the requested documents would not be transmitted; rather 
they would be available for review in the Department's 
headquarters. This is not cooperation. This is unacceptable.
    The Department claims no privilege that justifies 
withholding the requested documents from Congress. Meeting the 
Department officials and getting the relevant documents 
concerning potential employee misconduct is essential in light 
of DOE's own admission in an internal document that these e-
mails may create a substantial vulnerability for the program.
    I also find DOE's lack of cooperation particularly 
disturbing since at the last hearing a DOE official testified 
that, ``The critical importance of this issue requires action 
to ensure the scientific basis of Yucca Mountain Repository 
Project is sound. The safe handling and the disposal of nuclear 
waste and maintaining public confidence in the safety of the 
repository are essential.''
    Assuming that the statement was more than just lip service 
as believed by the Department, I find it curious that the 
Department is not bending over backward to assist this Congress 
and this congressional investigation so the truth may come out.
    The 19th Century American author and lawyer, Christian 
Astell Bouvier, once said, ``Truth like the sun, submits to be 
obscured, but like the sun only for a time.''
    The subcommittee will not be deterred and will continue to 
seek the truth behind these allegations. The truth will be 
told.
    Again, I want to thank you all for being here. I want to 
thank our witnesses for being here. I look forward to our 
discussion.
    I would now like to recognize the ranking member of the 
subcommittee, Mr. Danny Davis. Welcome, Mr. Davis.
    [The prepared statement of Hon. Jon C. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T4819.004
    
    [GRAPHIC] [TIFF OMITTED] T4819.005
    
    [GRAPHIC] [TIFF OMITTED] T4819.006
    
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Chairman, I was unable to attend the first hearing on 
Yucca Mountain regarding the discovery by Department of Energy 
contractors that e-mails written by a U.S. Geological Survey 
hydrologist suggested that some quality assurance documents 
related to water infiltration and climate studies had been 
falsified. While a very important issue, the debate as to 
whether or not Yucca Mountain is an appropriate site to store 
nuclear waste is not within the jurisdiction of this 
subcommittee.
    However, it is alleged that Federal employees, USGS 
scientists to be specific, falsified documents to support the 
very sensitive and politically charged notion that Yucca 
Mountain is an appropriate site to store nuclear waste. These 
are very serious charges. However, these scientists must be 
afforded the same rights that even a common criminal would be 
afforded in our justice system: the presumption that a person 
is innocent until proven guilty.
    It is important that we obtain the facts and understand the 
context in which these e-mails were written before we pass 
judgment on these employees.
    It is interesting to note that these same scientists are 
referenced in a March 10, 2004, article in the Las Vegas Sun 
entitled, ``Scientists Detail Yucca Water Threat.'' Mr. 
Chairman, I would ask unanimous consent to have this article 
inserted as a part of the record.
    Mr. Porter. No objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4819.001
    
    [GRAPHIC] [TIFF OMITTED] T4819.002
    
    [GRAPHIC] [TIFF OMITTED] T4819.003
    
    Mr. Davis. The article states that USGS scientists 
challenged early DOE scientific models that Yucca Mountain is a 
suitable site, suitable nuclear waste repository, due to the 
small quantities of water that infiltrated the mountain. The 
USGS scientists found that much more water flows through the 
mountain and hence there is the potential for the water to 
reach and erode the canisters that will hold the nuclear waste. 
It would appear from the article that the USGS scientists who 
are now being accused of falsifying documents just a year ago 
provided the science to support longstanding concerns raised by 
Nevada policymakers.
    Mr. Hevesi, one of the scientists in question, will be 
testifying before us today. It is his opportunity to put his e-
mails into context and an opportunity for us Members to educate 
ourselves about what these employees may or may not have done 
as it pertains to falsifying scientific documents.
    I want to thank you, Mr. Chairman, for calling this hearing 
and your continuous pursuit of information so that we can all 
know the truth and hopefully be guided by the truth and nothing 
but the truth.
    I thank you and look forward to the testimony of the 
witnesses and yield back the balance of my time.
    Mr. Porter. Thank you, Mr. Davis.
    Mr. Mica, do you have an opening statement today?
    Mr. Mica. First of all, let me thank you for conducting 
this hearing. I think this does followup a previous hearing on 
the question of whether Federal employees have been involved in 
falsifying documents.
    Those are very serious charges. I think they are 
particularly serious because it does deal with a very sensitive 
issue and that is the storage of our nuclear waste.
    As everyone knows, this is a controversial program and it 
also does pose a certain risk. I guess Nevada is the repository 
and the people of Nevada have great need to be concerned if in 
fact some of the data has been modified or falsified.
    I think it is incumbent on the subcommittee to monitor the 
activities of our Federal employees and agencies.
    I am pleased to see that this is also initiated. I think we 
will hear about that. I have read about additional 
investigations being conducted both by DOE in the Office of 
Inspector and also the Secretary is ordering a technical review 
of water infiltration modeling and analysis and also conducting 
other reviews into the records system.
    All of these actions, I think, are positive. I thank you, 
Mr. Chairman, for helping initiate this. As a former chair of 
this subcommittee, I think oversight is one of our most 
important responsibilities, particularly where it does deal 
with the health, safety and welfare of our people.
    So, I look forward to hearing the testimony. I, too, hope 
that this won't be an exercise in the witness just taking the 
fifth amendment. If he does, I think that we will find other 
ways to get answers and get to the bottom of whether or not 
documents have been falsified and improperly handled by the 
agency.
    Again, I am pleased to participate and I thank you for your 
leadership again on the issue. I yield back.
    Mr. Porter. Thank you, Mr. Mica.
    To get into procedural matters at this time, I would like 
to ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record. Any answers to written questions provided by the 
witnesses will also be included in the record.
    Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits including an 
original subpoena which acknowledged the meeting time to be 2 
p.m. today be included. No. 2, a letter to Mr. Hevesi agreeing 
to appear at the 10 a.m. meeting this morning, and also a 
document which showed the additional subpoena that was issued 
for the change of time for today's hearing at 10 a.m. I would 
like to ask unanimous consent.
    Hearing no objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    It is the practice of the committee to administer the oath 
to all witnesses. Would you please stand, Mr. Hevesi and Mr. 
Arthur, and raise your right hands?
    [Witnesses sworn.]
    Mr. Porter. Let the record reflect that all witnesses have 
answered in the affirmative. Please be seated. Thank you.
    In our first panel today we will hear from Mr. Joseph 
Hevesi, scientist, U.S. Geological Survey, Department of 
Interior. You are recognized for 5 minutes, Mr. Hevesi.

       STATEMENT OF JOSEPH HEVESI, U.S. GEOLOGICAL SURVEY

    Mr. Hevesi. My only opening statement is that I have not 
been completely uncooperative as you characterized. I have 
responded to all document requests and will continue to do so.
    Mr. Porter. Thank you, Mr. Hevesi, we appreciate that. I 
would now like to move into the question and answer segment. We 
appreciate your being here today. I understand that this is a 
very major project impacting the country. Again, we appreciate 
you attending our meeting.
    I would like to begin the questioning by first asking you, 
have you ever falsified any documents relating to the Yucca 
Mountain Project?
    Mr. Hevesi. I have never falsified any documents relating 
to the Yucca Mountain or any other project.
    Mr. Porter. Did you ever feel pressure from any of your 
superiors to produce specific model results?
    Mr. Hevesi. No, I never did.
    Mr. Porter. In one of your e-mails, exhibit 12 if you would 
like to see it, what did you mean when you said ``The YMP or 
Yucca Mountain Project has now reached a point where they need 
to have certain items work, no matter what?'' Could you explain 
that?
    Mr. Hevesi. I am meaning that the models need to function 
numerically. They need to perform the calculations. I am not 
referencing any other meaning beyond that.
    Mr. Porter. Well, in the next sentence you state, ``If the 
USGS can't find a way to make it work Sandia will.'' In the 
last sentence of the paragraph you said, ``But they fully 
realize the problems we are having with the Director's approval 
thing.''
    Can you explain what that means? Again, ``If you can't find 
a way to make it work, Sandia will.'' And then you went on to 
say, ``But they fully realize the problems we are having with 
the Director's approval thing.''
    Mr. Hevesi. Well, pertaining to making it work, again, that 
refers to having the models actually function. A model needs an 
input file to work and to perform its task, so that had to 
work.
    In terms of Director's approval, the USGS normally requires 
Director's approval to OK results or data for public release. 
The USGS is required to release findings to the general public.
    Mr. Porter. ``If you can't find a way to make it work 
Sandia will.'' Could you explain Sandia's role in the oversight 
of the project?
    Mr. Hevesi. I was working with Sandia scientists. We were 
on a team.
    Mr. Porter. Did Sandia have a role of oversight? Were they 
contracted to work on the project as a subcontractor?
    Mr. Hevesi. They were in the same position as USGS in terms 
of performing scientific studies.
    Mr. Porter. But they fully realized the problems you were 
having with the Director's approval thing. So, would you say 
Sandia was aware of some of the challenges you were having in 
trying to find a way to make it work?
    Mr. Hevesi. Yes.
    Mr. Porter. In the last sentence of the second paragraph 
you state, ``I can no longer wait for USGS to figure this out. 
I'm moving ahead according to the PA-Sandia work plan we put 
together this week.'' Does this mean that you were going to 
work on something without approval from USGS?
    Mr. Hevesi. No, that is not what that means.
    Mr. Porter. Can you explain what that means?
    Mr. Hevesi. Could you repeat the question again to make 
sure I understand it?
    Mr. Porter. No problem. In the last sentence of the second 
paragraph you state, ``I can no longer wait for USGS to figure 
this out. I'm moving ahead according to the PA-Sandia work plan 
we put together this week.''
    Does this mean that you were going to work on something 
without proper approval?
    Mr. Hevesi. No, it does not.
    Mr. Porter. What does it mean?
    Mr. Hevesi. It means that I am going to move ahead with the 
work that I was already doing.
    Mr. Porter. Even without approval from management?
    Mr. Hevesi. No, it does not mean that.
    Mr. Porter. I am sorry. I guess I am confused. So, you are 
saying that you weren't going to wait for management, you were 
going to move ahead anyway and that is not in a direct contrary 
order to your management?
    Mr. Hevesi. Could you be specific as to what e-mail you are 
referencing?
    Mr. Porter. I would be happy to. It is E-mail No. 12 in 
your material there.
    Mr. Hevesi. We were in the proposal phase of the work plan, 
so the work was being set up and I was in the process of 
waiting for the formal account to be set up through the USGS.
    Mr. Porter. Let me move on from this one. You state in the 
next to the last sentence, ``What I really need now are some 
warm bodies to review the work I've been doing.''
    Does this mean that you didn't receive support from 
management at that time?
    Mr. Hevesi. The proposal that I put forward was asking for 
more resources.
    Mr. Porter. ``What I really need now are some warm bodies 
to review the work I've been doing.'' What you are saying, your 
proposal was for additional moneys?
    Mr. Hevesi. It was for additional resources to move forward 
efficiently with the work.
    Mr. Porter. Is that referring to money, funding?
    Mr. Hevesi. I believe so. I don't recall exactly, but in 
terms of resources I am referring to people to help with the QA 
and to help with the program development.
    Mr. Porter. What do you mean in the last sentence when you 
quoted, ``Live by the sword, die by the sword?''
    Mr. Hevesi. I do not recall what I meant by that statement.
    Mr. Porter. ``Live by the sword, die by the sword.'' It is 
quite interesting that would be in an e-mail regarding finding 
a way to make the project work and you don't remember why you 
said, ``Live by the sword, die by the sword.''
    Mr. Hevesi. No, sir. This e-mail is dated 1998 and I place 
things in e-mails out of emotional response and I do not recall 
what I meant by the statement.
    Mr. Porter. Then in general you state the emotional 
response. What was happening at that point in time? Maybe you 
can't remember why you used those words, but you do remember 
the emotion.
    What was happening to create this emotion for you to feel 
that you might need to say something like this?
    Mr. Hevesi. During this time there was one opportunity and 
a final opportunity in a way that had developed that I was a 
part of encouraging to develop a better version of the model to 
handle the future climate inputs.
    To me and to my colleagues assigned to working on this it 
was very important that we complete that improved version. The 
timeline for doing that was very tight.
    Mr. Porter. Did you find that there was a problem 
accomplishing the goal because of the time constraints that you 
were put under? Is that why it was an emotional time?
    Mr. Hevesi. We knew that we could accomplish the goal, but 
we also knew it was going to be tight. We knew there was not 
going to be much leeway in the timeline.
    Mr. Porter. So you were feeling pressure at that point to 
get the job done?
    Mr. Hevesi. Yes.
    Mr. Porter. OK. Mr. Davis, do you have questions?
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Hevesi, did you falsify scientific measurements for the 
Yucca Mountain Project?
    Mr. Hevesi. No, I did not.
    Mr. Davis. To your knowledge, did any other USGS scientist 
falsify any documents?
    Mr. Hevesi. To my knowledge they did not.
    Mr. Davis. Were quality assurance procedures clearly 
outlined and defined for scientists to follow?
    Mr. Hevesi. In some cases the quality assurances procedures 
were evolving, so they would change at times at that point in 
the project.
    Mr. Davis. Were they always specific in writing or were 
there times when there was verbal communication relative to 
these assurances?
    Mr. Hevesi. They were specific in writing. In some cases 
there were several revisions or versions of the procedure.
    Mr. Davis. So there were combinations of communication 
relative to the procedures which were used?
    Mr. Hevesi. That is my recollection, yes.
    Mr. Davis. Last March USGS scientists testified before the 
U.S. Nuclear Waste Technical Review Board that the Government's 
early models showed a high degree of lateral movement of water. 
That model indicated that much of the water flowed off the 
Yucca Mountain.
    The USGS scientists noted that more recent studies showed 
that much of the water moved vertically through fractures in 
the rock. The implication of the scientists' findings was that 
water can penetrate the mountain and possibly corrode the 
canisters containing the nuclear waste.
    What role did you play in developing the models that found 
that more water flows through the mountain than originally 
thought?
    Mr. Hevesi. The models themselves do not find or not find 
that there is more water in the current climate flowing through 
the site. That comes from field measurements and field data. 
The models are calibrated or they are made to be consistent 
with that field data.
    My role was to develop the model itself, the Fortran 
programming, the inputs, to process the outputs and to supply 
that to end users. It was my role to try to make this model 
consistent with the field data. My role in the field data 
collection itself was more limited.
    Mr. Davis. Do you do e-mails in code? I mean do you have 
some kind of code that you use? You mentioned that sometimes 
you respond emotionally. Of course, code would indicate that 
somebody on the receiving end of whatever one was sending would 
have to be able to decipher or what that was. I mean, do you 
have any codes?
    Mr. Hevesi. There was no code. What you see are raw, 
emotional responses.
    Mr. Davis. So there would not be a recipient on the other 
end who would be able to pick out and derive a meaning 
specifically related to something that you had indicated?
    Mr. Hevesi. No, not to my knowledge. It is plain English, 
no code.
    Mr. Davis. Could you explain why you kept two sets of 
files?
    Mr. Hevesi. Yes. The program that I ran had in some cases 
input files that could not use header information. So, these 
are just columns of numbers with no identifiers in the first 
row.
    The QA requirements did require those identifiers. It is 
easier to decipher the input files. So, the two sets of files 
are one set that has the header line and the other set does not 
have the header line. All the numbers in those files are 
identical. So, in essence, they are identical files.
    Mr. Davis. And would someone who accessed those files be 
able to delineate or understand clearly the meaning of the 
material?
    Mr. Hevesi. The header information does add meaning to the 
files, but not to the degree where an outside individual would 
readily understand these files.
    Mr. Davis. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Porter. Mr. Marchant.
    Mr. Marchant. Why were you called back a few months ago to 
work on the project?
    Mr. Hevesi. Excuse me, would you repeat the question?
    Mr. Marchant. Why were you called back to work on the 
project a few months ago?
    Mr. Hevesi. There were several reasons. I was providing 
consultation support to colleagues that were revising the AMR 
document. They were working to improve the document.
    Mr. Marchant. Who contacted you to come back?
    Mr. Hevesi. I was initially contacted by Ron McCurley, I 
believe, either Ron McCurley or Dan Levin.
    Mr. Marchant. Specifically, what missing computer files 
were you brought back to retrieve?
    Mr. Hevesi. There are control files for the models. It is 
part of the model inputs. I had thought that these were already 
in the TDMS system. In 2004 it became evident that maybe they 
were not in the system and this was the request.
    Mr. Marchant. Were you able to find them?
    Mr. Hevesi. Yes.
    Mr. Marchant. What was the significance of your finding 
those files?
    Mr. Hevesi. I am not sure how significant that was because 
the files, it would be possible to recreate these files even if 
the files did not exist. But it is more work to recreate them. 
It is more efficient to just have the original file.
    Mr. Marchant. Prior to DOE's public announcement of the e-
mails of mid-March did anyone from DOE or USGS management in 
headquarters contact you in an effort to solicit your insights 
as to the context of the e-mails you authored and if so, would 
you identify the official or agency.
    Mr. Hevesi. Prior to what date?
    Mr. Marchant. Mid-March.
    Mr. Hevesi. No, I received no contact. I believe my initial 
contact was March 16th or 17th. I don't recall exactly.
    Mr. Marchant. At that time, did either of those agencies go 
through the e-mails with you and ask for explanations of the e-
mails and what you meant by the e-mails?
    Mr. Hevesi. At my initial contact, a couple of days after I 
initially became aware of the situation, there was a USGS 
meeting to discuss the e-mails.
    Mr. Marchant. Do you think you were given a reasonable time 
to explain? Do you think that they handled it reasonably and 
you were able to fully explain what the meaning of the e-mails 
from your perspective were?
    Mr. Hevesi. Yes, I do.
    Mr. Marchant. Have you felt supported by the agency in 
confronting the allegations?
    Mr. Hevesi. Yes.
    Mr. Marchant. I understand USGS has referred you and others 
to the USGS Solicitor's Office in California for guidance. Have 
you ever felt misguided or misinformed by anyone within the 
agency or the Solicitor's Office?
    Mr. Hevesi. No, I have not.
    Mr. Marchant. Did anyone other than your attorneys advise 
you not to speak to us?
    Mr. Hevesi. Repeat the question, please.
    Mr. Marchant. Did anyone other than your attorneys advise 
you not to speak to this committee?
    Mr. Hevesi. No, not in terms of the direct advice, no.
    Mr. Marchant. Thank you.
    Mr. Porter. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I want to commend you for coming here. I have been on the 
other side, many years ago, and it was only trying to talk 
about the promise of free trade with Mexico.
    The grueling was enough that I didn't think I wanted to 
come back again. I can only imagine what it feels like to be 
here to discuss a few e-mails out of 10 million e-mails and 
then be told this must be the epicenter of all that is 
important.
    I wanted to ask you just briefly, throughout the e-mail in 
question and the whole QA program, were you given policies and 
procedures and guidelines that allowed you to go through this 
process effectively or were there some frustrations and if so, 
what were they?
    Mr. Hevesi. There were very definitely policies and 
guidelines. The Yucca Mountain Project and the studies I was 
involved in are unique in that we were undertaking in some 
cases the model development studies that have not been 
performed before. So, we were doing unique procedures that were 
being developed as we were doing the work.
    Mr. Issa. Do you feel that you were given adequate training 
for this? Is there such a thing as adequate training to prepare 
you for this zero failure sort of environment that you were put 
in?
    Mr. Hevesi. Yes, I had adequate training. I had Fortran 
training programming and course work, college course work on 
the science and continued that training through my employment.
    Mr. Issa. How would you characterize the, if you will, the 
level of scrutiny, including here today? Do you think it has 
been fair considering the seriousness of a nuclear storage 
facility or do you think that candidly we are looking for the 
proverbial needle in the haystack, even if it is the shortest 
needle you ever saw?
    Mr. Hevesi. I believe this level of scrutiny is 100 percent 
warranted.
    Mr. Issa. I appreciate that. I appreciate your dedication.
    Can you explain for us what were the tiger teams, how they 
were implemented in the quality process and perhaps educate us 
a little bit on how you achieved the level of detail in 
scrutiny that you had to be part of?
    Mr. Hevesi. I am somewhat reluctant to define the tiger 
teams because I am not sure I ever really knew 100 percent what 
they were. It was part of a review process. My recollection is 
an action of PVAR procedures.
    But it is difficult for me to answer that exactly because I 
am just going by memory on that.
    Mr. Issa. I will try to close with the question that I like 
to give people who we put in the hottest light of our country. 
What should we be doing here in this committee or in the 
Congress to further the process both of obviously a successful 
nuclear storage facility and perhaps less of this time-
consuming outside the ordinary process type activity?
    What could we do different to prevent in the future exactly 
what you are going through today and perhaps some of the 
stumbling points that have confused people as to whether or not 
Yucca Mountain is safe or whether there was a cover-up?
    Mr. Hevesi. Perhaps a higher degree of public involvement. 
Part of the frustration that I was having was not being able to 
produce the public literature that I was hoping to produce 
through this process.
    The USGS tries to put the information or it has to, it is 
required to put the information and the findings out to the 
public in the form of reports and maps. I would have liked to 
have seen that process to be more efficient.
    Mr. Issa. Thank you.
    Mr. Chairman, I yield back.
    Mr. Porter. On E-mail No. 30, Mr. Hevesi, you state that 
``The model was to be consistent with field observations and 
had to reflect reality.''
    You stated that, ``Here's the weird news. To get to this 
milestone through Quality Assurance I must state that I have 
arbitrarily selected the analog sites. At first I was going to 
include your e-mail as supporting information in the data 
package and discuss the work we had used in the worksheets 
consisting of candidate sites, but since there is no DTM for 
the results, the message I am getting from Quality Assurance is 
that I can't use or refer to those results.''
    How do you explain the e-mail concerning these seven analog 
sites and why you didn't pick the analog sites randomly?
    Mr. Hevesi. I used the sites that Rick Forester was 
recommending. This e-mail is just discussing the technicality 
of how we reference that work. The e-mail itself is not 100 
percent accurate because at the time I am writing this I am not 
aware of leeway in terms of using a to-be-verified status for 
this type of an input.
    Mr. Porter. You said that the model was to be consistent 
with field observations and it had to reflect reality. So what 
you are saying is that you were not aware of all the 
circumstances at the time you wrote this e-mail?
    Mr. Hevesi. Are you discussing the data inputs or the 
procedures?
    Mr. Porter. Actually, both.
    Mr. Hevesi. The procedures on the to-be-verified status of 
data were going through a stage of development at that time.
    Mr. Porter. The procedures?
    Mr. Hevesi. I believe. That is to the best of my 
recollection.
    Mr. Porter. Did you say procedures for what?
    Mr. Hevesi. Data inputs or data that was being used for a 
model or a process that was not referenceable directly to the 
TDMS at that point in time.
    Mr. Porter. So you didn't have a procedure at that time? Do 
I misunderstand?
    Mr. Hevesi. I don't recall if it was a written procedure or 
if it was undergoing development at that point in time.
    Mr. Porter. In E-mail No. 16, we recognize that you didn't 
write this e-mail, but it was addressed to you. Please explain 
the best you can. For example, the first couple of sentences, 
``The bottom line is forget about the money. We need a product 
or we're screwed and will take the blame. Everybody will say 
that they told us to go ahead without a plan or budget in 
place. This is now CYA and we had better be good at it.''
    How often did you and your colleagues conduct work without 
a plan or a budget in place?
    Mr. Hevesi. In science, you need to develop or perform some 
level of scoping exercise in order to judge whether what you 
are proposing to do has a possibility of occurring or 
concluding. So, it is something that you have to do as a 
scientist.
    Mr. Porter. You have to move forward without a plan as a 
scientist; is that what you are saying?
    Mr. Hevesi. No. You have to perform scoping exercises.
    Mr. Porter. Your e-mail said, ``In all honesty, I've never 
felt well managed or helped by the USGS Yucca Mountain folks. 
In fact, as you know, I've often felt abandoned. This time it's 
no different or worse and we have to work together to get out 
of this one. I'm still overwhelmed trying to protect the rest 
of the program from the ravages of what's happening in Denver 
(funding, which we seem to be blamed for because we got 
funding) and the current HDP fiascos in the ESF.''
    Would you please explain what the HDP and ESF mean?
    Mr. Hevesi. I am not sure I recall what that means. I don't 
even see it in the memo. Could you point that out?
    Mr. Porter. Yes. It is in E-mail No. 16. Let me grab the 
original here. It is signed Allen. On the bottom line it says, 
``Forget about the money. We need a product or we're screwed.''
    Do you find that paragraph? It is down toward the bottom.
    Mr. Hevesi. And you are asking specifically about the HDP 
fiascoes and the ESF?
    Mr. Porter. Yes. What does that mean?
    Mr. Hevesi. I do not know what that means. My involvement 
in the program at this point was very limited in the ESF. I was 
primarily working with the Fortran codes at this point in time.
    Mr. Porter. Does this then reflect that you and your 
colleagues were managed poorly? Do you think you were managed 
poorly at this time?
    Mr. Hevesi. I do not believe we were managed poorly. Can 
you define exactly what you mean by managed poorly?
    Mr. Porter. Well, it seems to be consistent throughout 
regard the e-mails regarding poor management and quality 
assurance problems. This is another one where it said, ``In all 
honesty I've never felt well managed or helped by the USGS 
folks. In fact, as you know, I've often felt abandoned.''
    Do you feel that is the sense of the employees, that they 
weren't being managed properly?
    Mr. Hevesi. I think at certain points in time there is a 
sense of that, but in general I would not characterize it that 
way. In certain points in time, and this includes myself, you 
have a limited perspective or you may have a limited 
perspective on a situation so you may not know the full story 
and that resolves itself.
    Mr. Porter. So, you are stating that there are points in 
time. Do you think then that these points in time could affect 
the quality of the work on the project and the ability to meet 
deadlines?
    Mr. Hevesi. Not to my awareness, not in terms of the 
quality of the science, no.
    Mr. Porter. Now, this particular e-mail which was No. 16, 
did you write this e-mail?
    Mr. Hevesi. Are we discussing No. 16?
    Mr. Porter. That is correct, the second paragraph.
    Mr. Hevesi. I did not write E-mail 16.
    Mr. Porter. Again, in my summary or overview of some of the 
e-mails, it talks about management and your frustration with 
management. You mention the emotional side at times.
    Did you ever make any formal complaints to the USGS or DOE 
project management on any problems with management or with the 
project?
    Mr. Hevesi. I never made formal complaints.
    Mr. Porter. Thank you.
    Mr. Davis.
    Mr. Davis. Mr. Hevesi, do you know how DOE came to realize 
the Yucca Mountain had to be engineered to safely contain the 
nuclear waste canisters?
    Mr. Hevesi. Could you be more specific with that?
    Mr. Davis. Well, to arrive at the decision that Yucca 
Mountain had to be engineered, that is to be scientifically 
analyzed and studied in order to safely contain or hold the 
canisters.
    Mr. Hevesi. I believe it was always an engineering problem. 
I believe the site was selected out of the three in 1984 and it 
has always been an engineering problem.
    Mr. Davis. Were you involved in any of that science?
    Mr. Hevesi. I was involved in collecting some of the field 
measurements. Are you discussing primarily drip shields? I am 
not sure I understand what specifically you are referring to.
    Mr. Davis. I guess what I am trying to determine is how 
much work had to be done to arrive at the feeling or the 
understanding or the recognition that this is a safe place to 
store the waste.
    Mr. Hevesi. When I first joined the program we were 
involved with developing a site characterization plan that was 
all-encompassing. As the project moved forward, that plan was 
narrowed down and focused.
    Mr. Davis. In your opening comment you indicated to the 
chairman that you had in fact been responsive and that you had 
responded to document requests. Was there any particular reason 
that you didn't respond to the invitation to personally meet 
with staff?
    Mr. Hevesi. Yes. I had indicated to the subcommittee staff 
that I preferred to have these meetings after the 
investigations that are still ongoing were concluded.
    Mr. Davis. You indicated that you wanted the investigations 
to have taken place and then you would be prepared or willing 
to have further discussions or meetings?
    Mr. Hevesi. I was trying to focus on one situation at a 
time rather than having two parallel situations.
    Mr. Davis. There have been some notions and you may have or 
may not have an opinion about this, but you may have, that 
there had not been enough resources allocated or generated to 
fully do the work that needed to be done and that perhaps there 
was not as much as consistency with the scientists involved in 
the project.
    Do you think that Congress has actually made enough 
resources available for you and your colleagues to do the kind 
of work that you need to do?
    Mr. Hevesi. I don't think I am at a level to have the 
knowledge to answer in general terms. In a specific sense, and 
this is my answer as a hydrologist specifically involved with 
the surface-based studies, I would have liked to have seen a 
little more resources being put into the surface water studies.
    It is a desert. There is not much surface water. But from a 
hydrologic standpoint, it is still important.
    Mr. Davis. Would you say it is not unusual for you to 
express sometimes a bit of frustration about something that I 
am working on and maybe feel that I am not getting to where I 
want to be quickly enough or that there are some impediments 
that I can't get around?
    Mr. Hevesi. I tend to have those frustrations more than 
most, yes.
    Mr. Davis. Thank you. Thank you very much, Mr. Chairman.
    Mr. Porter. Mr. Marchant.
    Mr. Marchant. Based on your work experience, how do you 
view DOE's management of the Yucca Mountain project?
    Mr. Hevesi. Again, I am not certain--I am not at a level, I 
do not feel that I am at a level to really answer that 
question.
    Mr. Marchant. How would you characterize the overall 
management culture and work environment of the project while 
you were there?
    Mr. Hevesi. From a scientific point of view, it was a very 
good environment in terms of having the opportunity to study 
hydrologic issues that in another sense may not be studied. 
This project is unique in terms of making a 10,000 year or 1 
million year prediction.
    Mr. Marchant. At any time during your career at Yucca 
Mountain did you feel the management pressure to complete your 
work? Did they give you unreasonable deadlines?
    Mr. Hevesi. There were deadlines that would require a more 
simplified approach to solving a scientific issue, but that is 
always going to be the case. As a scientist we have the 
tendency to put too many resources into a problem because we 
are after the right answer, which is the true answer. In often 
cases you can never get to that point.
    Mr. Marchant. So they would basically come in and say is 
this good or bad and you would feel like they needed more of a 
black and white answer and a scientist is really not ever 
prepared to give that kind of an answer?
    Mr. Hevesi. Could you repeat that? I am not sure I 
understand that question.
    Mr. Marchant. Well, in the business I work in, I go to my 
engineers all the time and say is this good soil or bad soil, 
if I go out to a project. I feel like sometimes to them that is 
too black and white a question because they want to give me a 
much more complex answer than that.
    Is that the way it is at DOE; they come in and say is 
everything OK out there or is it not OK. The scientist is more 
likely to want to give a more detailed answer than that.
    Mr. Hevesi. The scientist has a tendency to give too much 
detail. I definitely had that tendency and it was the role of 
oversight to decide when an answer was adequate for the 
intended use. So, there were reviews to get to that point.
    Mr. Marchant. Did you ever feel like the incentives, the 
bonus incentives that were offered by the DOE or its outside 
contractors were pushing things along faster than you were 
comfortable with?
    Mr. Hevesi. Those incentives never pushed me directly. I 
was aware of the schedule being potentially affected, but I 
directly never benefited from that.
    Mr. Marchant. Did you feel like that was what was pushing 
you? When you felt pushed and you felt like you were under time 
constraints, did you feel like it was the bonus system that 
might have been doing that?
    Mr. Hevesi. I knew the schedules were tight. I have no 
specific information that I can answer that question with 100 
percent sureness.
    Mr. Marchant. In the latter years of your work at Yucca, 
did DOE allocate more funding toward the engineering efforts 
rather than to scientific studies on the modeling work?
    Mr. Hevesi. I believe so, but again, I am not at a level to 
ensure 100 percent accuracy with that. I needed the funding for 
the surface-based studies and the infiltration modeling was 
diminishing. That is as far as I can really answer that 
question.
    Mr. Marchant. Thank you very much.
    Mr. Porter. We will go back to the e-mails again. Will you 
look at E-mail No. 8? Can you give us some background and 
context to the statement regarding working with the engineers 
because that is where the funding was going?
    Also, please explain the last two sentences, ``Wait till 
they figure out that nothing I've provided them is quality 
assured. If they really want this stuff they will have to pay 
to do it right.''
    Mr. Hevesi. I would like to answer the second part of that 
first.
    Mr. Porter. Certainly.
    Mr. Hevesi. This had started out as a scoping exercise. I 
believe it was being referred to as an engineering calculation. 
When we initiated the work it was very unclear whether this 
would lead to something that would need to be qualified or not.
    So, the need to have this qualified came in after I had 
performed the work.
    Mr. Porter. And then background and context regarding your 
working with the engineers and where the funding was going.
    Mr. Hevesi. The funding in my circle of colleagues and the 
people I was working with, we knew that the funding was being 
directed more toward the underground work and also toward the 
engineering work.
    Mr. Porter. You said, ``Enjoyed the ranting and raving. We 
are trying to work with the engineers because that's where the 
funding is going. Leveling the top of the mountain seemed 
humorous, but it gave me the chance to make some more cool 
figures. This little task is history. Wait till they figure out 
that nothing I've provided them is quality assured. If they 
really want the stuff they'll have to pay to do it right.''
    Again, would you explain to me what you were saying? I 
guess I don't understand.
    Mr. Hevesi. I had performed the engineering calculation 
with the model. I finished that and I was happy to provide that 
information to the engineers. It was never clear to me that 
this work would need to be quality assured.
    When it became evident that there would be a possibility 
that it would need to be quality assured, I did not see the 
resources there to do that because I knew that would require a 
lot more resources.
    So, I was concerned that an assumption was being made that 
the quality assurance could move on without having the 
resources in place to do so.
    Mr. Porter. It just seems--and I appreciate what you are 
saying, that you didn't think this needed to be quality 
assured. You know, it is almost like, you know, I could be 
wrong, but it is almost like when you said, ``Wait till they 
figure out that nothing I provided them was quality assured,'' 
it is like is that a surprise? Was that going to be a surprise?
    Mr. Hevesi. That is very poor wording on my part in this e-
mail. I did not intend, I had no intention of this coming 
across as a surprise to the engineers. I am simply stating that 
there may be some miscommunication in terms of assumptions that 
work was being supported as being quality assured.
    Mr. Porter. Do you and did you feel that the quality 
assurance program was adequate?
    Mr. Hevesi. When a product needed to be quality assured, 
then yes. But when we were doing work that may or may not need 
that quality assurance, then it was not there and that was the 
case in this case.
    Mr. Porter. Bear with me. This is science, so I am asking 
you from your professional perspective. What you are saying is 
that not all work was quality assured. Did you have to go back 
and redo it if it needed to be quality assured?
    Mr. Hevesi. No. The work was sound. It is just a matter of 
the documentation of whether those results would need to go to 
the TDMS or not.
    Mr. Porter. Let us move on to E-mail No. 21. You said, 
``I'm going to continue the regional modeling, even if it means 
ignoring direct orders from Yucca Mountain management.''
    You need to explain this to us, please.
    Mr. Hevesi. What I am saying in this e-mail is actually not 
really correct. I have a limited perspective on what management 
knows or doesn't know at the time I am writing this e-mail and 
I was corrected on that perspective.
    So, the e-mails are only reflecting a process of doing the 
work. They are not reflecting final outcome.
    Mr. Porter. ``I'm going to continue the regional modeling, 
even if it means ignoring direct orders.''
    What were their direct orders?
    Mr. Hevesi. I don't recall what their direct orders are.
    Mr. Porter. So, do you think you ignored their direct 
orders? It sounds that way, whatever they were.
    Mr. Hevesi. It would not be possible for me to ignore their 
direct orders because management was aware of all the work that 
I was doing through my supervisor and then through his 
managers.
    Mr. Porter. Then I must ask why at the end did you state, 
``So delete this memo after you've read it?''
    Mr. Hevesi. This was a personal correspondence between 
myself and my colleague, so the discussion here is on a 
personal level. Often we--it is just on a personal level.
    Mr. Porter. So, what did you determine what was going to be 
personal and what was going to be professional? It seems to me 
this whole e-mail has to do with the project.
    Mr. Hevesi. I am not sure I understand.
    Mr. Porter. We are looking at E-mail 21, correct?
    Mr. Hevesi. Correct.
    Mr. Porter. ``I've been trying to figure out what's really 
coming at us with the Tiger Team.'' I know that you were asked 
that question earlier and you didn't know what the Tiger Team 
was.
    ``So far we have learned that they don't have a solid plan 
of action,'' whoever the Tiger Team is. I am adding that 
editorial comment even though you don't know who they are.
    ``I have formulated a potential impact list.'' Now you 
continue in the e-mail, ``Now I'm going to give you the inside 
scoop. I'm going to continue the regional modeling, even if it 
means ignoring direct orders.''
    You refer to the Tiger Team again. ``In the end, it's going 
to be reports that move anything else forward. Tiger Team 
efforts will just be vaporized. So, the work may be slowed, but 
I will not let it stop. At this point I am still working to the 
plan that we've all spent a significant amount of time on to 
make things happen for 1999. That's the inside scoop. The 
position we will take for the M&O planners may be much 
different. So delete this memo.''
    Why is this a personal memo that you would say to delete? 
This looks like it all has to do with your job.
    Mr. Hevesi. Well, our concern as scientists was to solve 
the technical problem of the science, of the work itself.
    Mr. Porter. And?
    Mr. Hevesi. And we were ensuring that would move forward.
    Mr. Porter. By deleting the document?
    Mr. Hevesi. By deleting what?
    Mr. Porter. ``So delete this memo.'' What on this memo was 
on a personal nature that was not related to your job?
    Mr. Hevesi. Just my level of communication is at a personal 
level. I realize that this is a non-professional memo.
    Mr. Porter. You had answered earlier to my colleague that 
you didn't know about the Tiger Team, who they were, but you 
referenced them a couple of times. Are you sure you don't know 
who the Tiger Team is?
    Mr. Hevesi. I knew it had to do with the QA review. I 
didn't know specifically how that review would be conducted.
    Mr. Porter. Who is the Tiger Team?
    Mr. Hevesi. I believe it had to do with the quality 
assurance review.
    Mr. Porter. They are a team of folks that do the Q&A 
review?
    Mr. Hevesi. I believe so and I believe it was added on as 
part of the evolving PVAR procedures, what were referred to as 
PVAR procedures, but I don't have a very good recollection of 
that.
    Mr. Porter. ``In the end it's going to be the reports that 
move everything else. Tiger Team efforts will just be 
vaporized.''
    Doesn't that seem kind of odd that you have no recollection 
of who they are?
    Mr. Hevesi. Well, what I am referring to, to that part of 
being vaporized, is that it is important for us to do work that 
becomes a report, that is referenceable and that is out into 
the public domain.
    Oftentimes the reviews, the Tiger Team reviews, would not 
result in a report that would go out in the public domain 
necessarily.
    Mr. Porter. Would you please answer one more time? You do 
not know who the Tiger Team is? You can't remember?
    Mr. Hevesi. Specifically, I cannot. I have a vague memory 
that it had to do with the QA effort. That is as far as I can 
go with that.
    Mr. Porter. Mr. Davis.
    Mr. Davis. One additional question, Mr. Hevesi. Has this 
experience generated any particular feelings that you have 
about your work and its relationship to decisions that have to 
be made?
    Mr. Hevesi. By feelings, what do you mean by that?
    Mr. Davis. I mean the process, the fact that you have been 
compelled to come and function as a witness, the allegations of 
misconduct, the whole environment surrounding the issue.
    Mr. Hevesi. Well, we felt the work was important, 
certainly. I am not sure I can answer what you mean by 
feelings.
    Mr. Davis. Well, if you have no additional, then you have 
no additional. It hasn't generated any additional thoughts or 
feelings. You still feel the same way about it that you did 
beforehand and you still feel the same way about doing what you 
do.
    Mr. Hevesi. I feel that the work is sound. I know it 
doesn't seem that way with these e-mails. If I can use a quote, 
the e-mails I characterize myself as being water cooler talk. I 
would not do that again in hindsight.
    Mr. Davis. I have no further questions, Mr. Chairman.
    Mr. Porter. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Hevesi, thank you very much for your testimony. You 
know, as I looked over these e-mails and I listened to your 
testimony, there is one that really interested me and that is 
No. 25. As you turn to that, let me say this: As one who has 
been on this committee for 9 years, more than 9 years, I have 
seen many people come before this committee, some of them by 
choice; some of them by force.
    In many instances, this committee has, through the mere 
bringing people here and questioning them in certain ways in 
the past, and I am not talking about subcommittees, I am 
talking about the overall committee, it has brought quite a bit 
of harm to a number of people. This is the same committee that 
did the Clinton hearings. So, we went through a lot.
    As I listen to you and as one who has practiced law for now 
over 30 years now, I want us to be very fair to you. E-mail No. 
25 caught my interest after listening to the excellent 
questions by my colleagues. This e-mail seems to kind of verify 
a number of things that you have already said. It sounds like 
you were just terribly frustrated.
    I would like to read parts of it very quickly. ``Some 
nights I have had a hard time going to sleep because I realize 
the importance of trying to get the right answer and I know how 
many serious unknowns are still out there and how many quick 
fixes are still holding things together.
    ``I'm just trying the best I can with three equations and 
fifteen unknowns. It seems odd that we have had to push so hard 
just to get even a little support for this work and, at the 
same time we end up being the ones most responsible for whether 
the PA predictions are right or wrong.''
    Could you explain that to me, please?
    Mr. Hevesi. Well, I did feel the work was important, but I 
can't say, because I am not at that level of knowledge in the 
project to tell anyone here exactly how important it was 
relative to all the things that PA has to look at when it runs 
the entire model that looks at site suitability.
    Mr. Cummings. You sounded like a very frustrated person.
    Mr. Hevesi. I had my heart in my work and I was intent on 
doing the best I could to find the correct answer for net 
infiltration. That is a spatially and temporarily varying 
number. It is not even a single number. It is a moving target. 
It is very difficult to measure and it is difficult to model.
    My heart was in my work to do the best I could to provide 
the project with, in essence, a series of maps that 
characterize net infiltration.
    Mr. Cummings. It is interesting that, I would imagine, even 
Members of Congress, if someone had to look at all our e-mails 
they might have a field day. I take it that a number of these 
e-mails, as you said before in hindsight, you might not have 
done it the way you did it. But I am sure you didn't expect 
people to be looking over your shoulder.
    I just want to thank you for your testimony and I want to 
thank you for your service. Sometimes we find ourselves in 
difficult circumstances. It seems as if it is the worse 
situation that we have ever been in, but sometimes it opens the 
light of day so that things can get better. So, I just want to 
thank you for your testimony.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T4819.007

[GRAPHIC] [TIFF OMITTED] T4819.008

    Mr. Hevesi. Thank you.
    Mr. Porter. Thank you, Mr. Cummings.
    E-mail No. 26 I would like to talk about for a moment. Do 
you know what the writer means by the statement, ``Science by 
peer pressure is dangerous, but sometimes it is necessary.''
    Mr. Hevesi. I do not. I know that peer reviews of 
scientific work is always important. It is required.
    Mr. Porter. It had to do with precipitation estimates, 
correct? According to this memo it was actually to you from Mr. 
Flint, correct?
    Mr. Hevesi. I do not recall the specific memo.
    Mr. Porter. E-mail No. 3, ``Our infiltration model has 
virtually no infiltration in washes; what infiltration there is 
in washes is basically put there as a fudge factor. I don't 
want to be too critical here--I could probably tear apart any 
of our models. Did somebody say seepage? And Joe Hevesi did us 
a great favor in helping us out for the VA.''
    Can you explain what they are talking about? They are 
talking about you. Do you know what they are talking about?
    Mr. Hevesi. The original models had a simplified accounting 
for stream flow in the washes and we knew this. We made it 
clear with the people that were using results from this model 
that the stream flow part was simplified.
    The term ``fudge'' refers to that simplification. It does 
not mean falsification. Scientists use fudge factors in models 
all the time as a simplified approach to account for something 
that we would like to have a more sophisticated approach, but 
for that level of modeling a simplified approach is sufficient.
    Mr. Porter. Again, this has to do with the very genesis of 
the project and of course that is whether there is any water 
seepage. Based on the scope of your professional knowledge, do 
you think that the site is safe for storage of nuclear waste?
    Mr. Hevesi. I am not at a level to comment onsite 
suitability at this point. I can tell you that what I pushed 
for and what put me in a position to be frustrated with what 
you see in these e-mails is my desire to improve on that stream 
flow component.
    That became my job and that is what I was pushing forward, 
a model that accounted for the stream flow component in a much 
more representative fashion that was representing the physical 
processes that are out there, not as a simplified fudge factor.
    I believe that was important. I continue to believe that is 
important. As a citizen, I would recommend taking a look at the 
stream flow component of the hydrology that is out there.
    Mr. Porter. You had commented earlier about the choice of 
sites had been narrowed prior to your being employed at the 
site. Certainly, that was a decision made by a lot of other 
people. I would assume that as you did your research you 
recognized that filtration or infiltration was a key element in 
the choice of Yucca Mountain.
    I am trying to summarize for those in the audience. 
Initially the site was picked because there was a limit of any 
leakage or seepage.
    It would seem to me that is your expertise in this area. 
Aside from the e-mails for a moment, and I appreciate that you 
are saying that more study needs to happen and whether that 
means from a funding or a managerial position.
    But with your expertise, and if I can maybe narrow the 
question, is there enough seepage to cause a problem for the 
storage of nuclear waste?
    Mr. Hevesi. I cannot answer that. I know that increased 
stream flow increases the potential for seepage and with some 
of the future climate predictions these are just potential 
future climates because you are asking us to make predictions 
of from 10,000 to a million years.
    There is a lot of uncertainty associated with that. But we 
do know that with more precipitation there is more stream flow 
and that has to be considered, especially in terms of focused 
flow.
    Mr. Porter. In other words, there is seepage and there is a 
flow and you would like to have more research done on the flow 
that is there, correct?
    Mr. Hevesi. One of the difficulties in working in a desert 
is that there is no flowing water. The stream flow that we are 
discussing now are episodic events that may occur, one every 10 
years or whatever, once every 5 years.
    You need an adequate window of time when working in desert 
environments to fully characterize that component of the 
hydrology because of the episodic nature of it.
    Mr. Porter. But you have found certain isotopes in the site 
from different parts?
    Mr. Hevesi. I have not, but I am aware of those studies, 
yes.
    Mr. Porter. E-mail No. 43, in this e-mail you wrote, 
``Please do not tell anyone how this was done because then 
we'll need to get this whole thing through software quality 
assurance.''
    Could you explain to us what you are referring to there?
    Mr. Hevesi. I am referring to a check I am doing, not on 
the model itself, not on the pre-processing or post-processing 
of the results. I am using software to check something else. I 
was attempting to be humorous in this e-mail.
    Mr. Porter. Thank you.
    Mr. Hevesi. I did not believe at all that it would need to 
go through quality assurance. I am making what I believed at 
the time to be a humorous comment.
    Mr. Porter. You say, ``Please do not tell anyone how this 
was done.'' Of course it sends a message that you were hiding 
something.
    Mr. Hevesi. Yes. I am making a joke out of it to the person 
I am sending the e-mail to.
    Mr. Porter. Thank you.
    Congresswoman, do you have any questions today?
    Ms. Norton. No, thank you.
    Mr. Davis.
    Mr. Davis. No.
    Mr. Porter. E-mail No. 44, at the end of this e-mail you 
wrote, ``I can fudge the attachment for BLOCKR7 for now but 
eventually someone may want to run BLOCKR7 to see what numbers 
come out and at that point there will be problems.''
    What were you attempting under the fudge definition 
regarding this project and what is the significance of the 
BLOCKR7?
    Mr. Hevesi. The BLOCKR7 processes the digital elevation 
model to generate inputs that are required by the solar 
radiation sub-routine. By fudge I am referring to putting in 
the document itself wording and filling holes in the document 
so that we know as we are developing the document where the 
placeholders are.
    I am not in any way referring to making something up or 
falsifying it. This is just the development of the document and 
by ``fudge'' I mean I am submitting a real rough draft that 
likely will need to be revised in that part of the document.
    Mr. Porter. So, you are saying, using the definition of 
``fudge'' that this may not be accurate information because we 
haven't done all the quality tests of whatever?
    Mr. Hevesi. It was ongoing work, yes.
    Mr. Porter. And in E-mail No. 47 you are referring to 
programs installed at the AMR indicating your lack of knowledge 
of when these programs were actually installed.
    You wrote, ``So, I've made up the dates and names. This is 
as good as it's going to get. If they need more proof, I'll be 
happy to make up more stuff, as long as it's not a video 
recording of the software being installed.''
    Why were you feeling compelled to make up names and dates?
    Mr. Hevesi. The programs in question here are again non-
essential programs that were being used for checking and 
visualization. They are not at the heart of the model itself.
    It was never apparent to me that the QA requirements would 
specifically affect these programs. This was the case for the 
project where it wasn't always apparent exactly what software 
would need to be qualified if it was just being used for 
visualization, for example, or if it is a standard software 
that is off the shelf and widely available.
    Mr. Porter. Again, you wrote, ``So I made up dates and 
names. That's as good as it's going to get. If they need more 
proof I will be happy to make up more stuff.'' So, did you in 
fact falsify information here?
    Mr. Hevesi. This is just a quick, off-the-cuff response on 
my part to a sudden request coming at me that I did not believe 
was going to be requested from me at any time.
    So, I was actually surprised to get this request. I am 
making an off-the-cuff remark to identify that I may not know 
the exact date. My wording here is poor and I should have used 
an educated guess.
    Mr. Porter. Explain to us what your role was then at the 
site. What was your position? Were you just doing research or 
did you have any authority in your capacity?
    Mr. Hevesi. My authority was limited. I was primarily doing 
the research, developing the code and running the model.
    Mr. Porter. So in your emotional responses and maybe 
flippant responses at times, based on frustration, whatever, 
are we then to assume that all of your colleagues understood 
what you were saying, that you were either joking or you were 
flippant or you were having a bad day? Did they understand that 
when you would send these type memos?
    Mr. Hevesi. I believe so. I believe I had a reputation for 
being flippant in my e-mails. I am trying to bring attention to 
the fact that I am not sure how to respond here and this is my 
way of doing it.
    Mr. Porter. Why not just report that you didn't know the 
names and dates of installation rather than make up 
information?
    Mr. Hevesi. That is exactly what I should have done. Can 
you repeat? Why didn't I report that I didn't know the names? 
Yes, that is what I am doing here in my own way.
    Mr. Porter. I would like to talk now a little bit about the 
quality assurance questions. You may not be aware, but there 
has been substantial questions with the project through the 
years as to the quality assurance program.
    But throughout the e-mails in question you exhibit a great 
deal of cynicism toward the QA program, policy and procedures. 
To what or whom did you attribute your frustrations with the 
quality assurance program?
    Mr. Hevesi. To what or whom did I attribute the 
frustration?
    Mr. Porter. Yes.
    Mr. Hevesi. Do you mean to whom did I direct the 
frustrations or why did I have the frustrations?
    Mr. Porter. Well, actually, both.
    Mr. Hevesi. Everyone was well aware of my frustrations. I 
openly discussed that with colleagues and supervisors and 
managers.
    Mr. Porter. So you openly discussed it with managers and 
colleagues? So, you have expressed formally then to management 
that there are some problems with the quality assurance 
program?
    Mr. Hevesi. I discussed it in terms of characterizing it as 
now that the procedures are being developed, when we are seeing 
exactly what the procedures are, there seems to be more work 
here than what we initially thought. So, our workloads were 
increasing as the procedures were being developed for quality 
assurance.
    Mr. Porter. This may have been asked earlier, but I want to 
ask it again: Do you feel that you received adequate training 
and guidance on the quality assurance programs?
    Mr. Hevesi. I would always read the required quality 
assurance documentation and yes, I had the training.
    Mr. Porter. Did you consistently follow the quality 
assurance guidelines and procedures or did you ever deviate 
from these procedures?
    Mr. Hevesi. I consistently followed the procedures.
    Mr. Porter. Did you ever receive a deficiency report based 
upon the audits of the quality assurance programs?
    Mr. Hevesi. I cannot answer that specifically on 
recollection. I have a vague memory of deficiency reports, but 
I have no specific recollection.
    Mr. Porter. Did you feel that the quality assurance 
requirements and procedures unnecessarily delayed other 
important work on the project?
    Mr. Hevesi. Could you repeat that again, please?
    Mr. Porter. Did you feel that the QA requirements and 
procedures unnecessarily delayed other important work on the 
project?
    Mr. Hevesi. By defining important, my characterization of 
important is addressing technical issues, for example, how 
stream flow is being handled in the washes. Yes, that was part 
of my frustration, was that at times I had the perspective that 
I wasn't able to solve the stream flow problem, for example, 
because I was busy quality assuring another component of the 
model.
    Mr. Porter. Earlier in the questioning you had stated in an 
answer to one of the questions, and I don't want to take it out 
of context, so I will need your help. I believe it had to do 
with the scientific study and engineering and whether there was 
enough funds going into the study as opposed to finding an 
engineering answer to the infiltration problem.
    You said there has always been an engineering problem. Do 
you know what you were talking about a little bit earlier about 
there always has been an engineering problem?
    Mr. Hevesi. For an underground repository you are always 
going to have to engineer to dig the tunnels and the caverns 
and to in-place the canisters. I assumed that would be the 
case.
    Mr. Porter. For laymen, which we are, the bulk of those in 
this room, including this panel, can you explain the high flux, 
low flux debate in the scientific community as it relates to 
water infiltration at Yucca Mountain?
    Mr. Hevesi. How do you mean discuss?
    Mr. Porter. Can you explain the debate? Tell us what is 
happening with the high flux and low flux debate in the 
scientific community.
    Mr. Hevesi. The flux issue is complicated because it 
depends on where you are in time and space on the mountain. It 
can have high variability. So, depending on how you are 
measuring it and in what location you are measuring it and what 
point in time you are measuring it or modeling, you can have 
very different answers.
    So, it is a complicated issue that received a lot of 
discussion in the scientific community.
    Mr. Porter. Based on your infiltration and climate studies, 
what are your conclusions with regard to water and movement 
inside the mountain? What is your conclusion?
    Mr. Hevesi. The studies I was performing were limited to 
the ground surface and the shallow subsurface. I was providing 
results to downstream modelers that were modeling the deeper, 
unsaturated zone. I cannot speak to that specifically.
    Mr. Porter. But your studies, were they accepted by DOE?
    Mr. Hevesi. Were they accepted?
    Mr. Porter. Yes, the studies that you performed were 
accepted.
    Mr. Hevesi. Yes.
    Mr. Porter. Did the findings of your studies or the 
conclusions of any other workers on the project, infiltration 
and climate studies, in any way contribute to DOE's effort in 
altering their original plan and vision of Yucca Mountain as a 
natural barrier toward more engineering modification and 
measures?
    Mr. Hevesi. I believe so, yes. I was working under Dr. 
Flint. I came on the program and part of my task in 1988 was to 
help out with the field monitoring of natural infiltration 
through a network of approximately 100 neutron access bore 
holes that were logged once a month.
    Initially, these appeared to be dry because we were in a 
drought phase in the studies. In the early 1990's we had a 
series of wet winters that did completely change our thinking 
on the hydrology of Yucca Mountain.
    The data collected from the neutron bore holes was one of 
the reasons why the thinking was being changed. But there was a 
wide variety of studies that were starting to come in at about 
that time and they were supporting each other in terms of 
higher net infiltration than originally thought was the case.
    Mr. Porter. I am going to ask this question a different way 
than I asked it earlier. But based upon your knowledge and 
findings pursuant to the water infiltration studies and future 
climate scenarios you conducted at Yucca Mountain, what is your 
assessment of Yucca Mountain as a repository for safe storage 
of nuclear waste?
    Mr. Hevesi. I am not in a position to answer that. The USGS 
was never in a position and our job was never such to make a 
recommendation onsite suitability. We were specific in 
collecting field data, performing the studies, developing the 
models to develop results, but not to make decisions onsite 
suitability.
    Mr. Porter. Didn't you also do work on future climate 
scenarios?
    Mr. Hevesi. I did not specifically work on those scenarios 
in terms of studying the likelihood or doing the actual studies 
of what a future climate might be. I was involved with the 
researchers doing that type of work because they were supplying 
me their results as input to the model that I was running.
    Mr. Porter. You had mentioned earlier, for those that 
haven't visited the deserts of Nevada, that there is not 
necessarily flows, but there can be, every 5 years or 10 years 
or however you want to categorize it, water that is unusual to 
the area.
    Mr. Hevesi. They are dry washes, but you can actually have 
a flash flood occur.
    Mr. Porter. So, you mention these future possible flash 
floods, the 5-year or 10-year. Did you take into consideration 
the effects of global warming in your studies?
    Mr. Hevesi. At one point we were and then we were 
redirected not to account for that and I can't answer 
specifically why that occurred. But at some point in the study 
the global warming issue was being taken into consideration.
    Mr. Porter. And then you were advised not to use that for 
some reason?
    Mr. Hevesi. I don't know how to characterize it. I wouldn't 
say advise, but I believe that other scientists working on that 
issue concluded that it may not be significant relative to 
longer terms changes in climate, glaciations, etc.
    Mr. Porter. Do you feel that the USGS is an advocate for 
the project?
    Mr. Hevesi. The USGS does not take a position pro or con.
    Mr. Porter. Mr. Hevesi, you know we are almost concluded, 
so I appreciate your being here this morning.
    In E-mail No. 18 please explain when you say, ``The Yucca 
Mountain Project is looking for the fall guys and we are high 
on the list. I got a strong feeling at the PA meeting that the 
high level folks are starting to pay very close attention to 
who they will come after when things hit the fan. Who got how 
much funding and at what time will all be long made clear that 
this will be like the O.J. trial where results are completely 
thrown out because of minor procedural flaws or personal 
attacks on credibility.''
    Who are these high level folks?
    Mr. Hevesi. I am not sure I recall what I mean specifically 
by high level folks. What I am conveying in this e-mail is that 
I had the feeling that--I am trying to recall what my thoughts 
were in this e-mail and it is a little bit difficult because--
--
    Mr. Porter. ``The Yucca Mountain Project is looking for the 
fall guy.'' As a layman it seems to me that is saying that----
    Mr. Hevesi. Well, I was concerned that decisions were being 
made at a high level where as scientists we had done the work 
we could within the funding limitations or time limitations, so 
we just did the best job we could.
    In terms of the quality assurance, we were documenting 
specifically what was done at certain points in time.
    Whether that was the best product possible given unlimited 
funding, we could not say. If it turned out that was not the 
best product, then it would still be our responsibility. So, I 
had a concern about that.
    Mr. Porter. So, your concern is that you would be held 
responsible. If you didn't have enough time or even enough 
funding, that you may well be responsible if they didn't get 
the results that they were looking for.
    Mr. Hevesi. Well, specifically in terms of the model that I 
was developing and running, this net infiltration model, I felt 
that it was fully adequate in 1999 to support the whole PA 
process and to feed into the downstream modelers.
    I was hoping for the opportunity to improve on that model 
because as a scientist I wanted to bring in more detail and 
make model improvements. I was concerned that if at some future 
point, as more information comes in, because 6 years have gone 
by now, so more information is known and the adequacy of the 
model may turn out to be not as high as we thought at that 
point in time and it would be my responsibility for having made 
the decision that the model was adequate.
    But I did not feel that I ever made that decision alone 
because there were reviews of the scientific work and a 
decision on whether the results were adequate or not were being 
made at a higher level.
    Mr. Porter. Mr. Hevesi, we appreciate your being here 
today. Thank you for your testimony. I would like to ask, No. 
1, we will be sending you some additional questions. We would 
appreciate if you would answer those questions.
    Also, would you be willing to meet with our staff in the 
future to cover any additional questions that they might have?
    Mr. Hevesi. Yes.
    Mr. Porter. Again, we appreciate your being here. Thank 
you. I'm sorry, before you leave, is there anything you would 
like to add before you conclude?
    Mr. Hevesi. I would just like to say that I, too, am 
somewhat horrified when I look at my own e-mails. This whole 
process has been a learning process for me where I realize that 
an e-mail is actually an official documentation.
    I was not perceiving e-mail that way. I perceived it as an 
outlet medium, in essence water cooler talk. I have completely 
rethought how I used the whole e-mail system and how I 
communicate with others.
    Mr. Porter. Thank you very much.
    Now, I would like to invite our second panel witness to 
please come forward to the witness table. Our second panel will 
be Mr. W. John Arthur III, Deputy Director, Office of 
Repository Development, Office of Civilian Radioactive Waste 
Management, Department of Energy.
    Mr. Arthur, we are pleased to have you here today. You will 
have 5 minutes.

  STATEMENT OF W. JOHN ARTHUR III, DEPUTY DIRECTOR, OFFICE OF 
 REPOSITORY DEVELOPMENT, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
                MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Arthur. Thank you, Mr. Chairman and members of the 
committee. I am John Arthur, Deputy Director of the Office of 
Civilian Radioactive Waste Management for Repository 
Development.
    My office is located in Las Vegas, NV and I have been with 
this program for the last 2\1/2\ years.
    We are here today because of a series of e-mails by a few 
people that suggests an intentional failure to comply with 
quality assurance requirements.
    Let me first say how disappointed I am with the 
circumstances that have brought us here today. I take this 
matter very seriously and, as you are aware, the Department of 
Energy has disclosed it forthrightly and freely. Any 
falsification of records or data or other misconduct is 
completely unacceptable and inexcusable. We conduct our work at 
the Yucca Mountain repository project with our first priority 
on ensuring the health and safety of the public and workers, 
while protecting and safeguarding the environment.
    These objectives have been guided by more than 20 years of 
scientific study by some of the best scientists and engineers 
in the world. These scientists and engineers have come from our 
own national laboratories, the international scientific 
community, universities including the university and community 
college system of Nevada, Federal agencies, as well as numerous 
government contractors.
    The expertise assembled to work on this project is truly 
world class and their work is the basis for the Yucca Mountain 
repository safety analysis.
    During our internal cataloging of materials for the Nuclear 
Regulatory Commission license application process, specifically 
the license support network, Yucca Mountain Project employees 
discovered a series of e-mails written between 1998 and 2000 by 
a few U.S. Geological Survey employees. These e-mails appear to 
indicate an intention to falsify quality assurance information 
and willful misconduct or non-compliance with quality assurance 
requirements associated with water or moisture infiltration 
modeling at Yucca Mountain.
    Shortly after I was briefed on this matter on March 11, 
2005, the Department of Energy's Office of Inspector General 
and the Secretary's office were notified. Additionally, we 
notified the Department of Energy, the Nuclear Regulatory 
Commission, Congress and also the State of Nevada.
    On March 16, 2005, the Secretary of Energy ordered an 
immediate scientific investigation of the data and 
documentation that was part of this modeling activity as well 
as a thorough review of all the work completed by individuals 
to determine whether any other work was effected.
    I would like to put this matter into perspective. Out of 
more than 10 million e-mails, the object of this hearing is a 
handful of e-mails that indicate a possible intentional 
circumvention or misrepresentation of compliance with the Yucca 
Mountain Project quality assurance requirements by these same 
USGS employees.
    The Department of Energy has used USGS since 1983 and has 
invested approximately $380 million in USGS research to support 
the repository program, pursuant to an interagency agreement.
    Under this agreement, the USGS was required to comply with 
applicable quality assurance requirements. The safety analysis 
established by the work products are prepared and peer reviewed 
by qualified scientists and engineers from our country's 
national labs and top technical institutions to ensure a sound 
and quality technical safety basis.
    Through the licensing process, the Nuclear Regulatory 
Commission will ultimately decide whether the repository 
receives a license.
    Our quality assurance expectations are spelled out in a 
work agreement between the Department of Energy and USGS, 
clearly and unambiguously. Problems with Mr. Hevesi's adherence 
to QA requirements were first identified in a DOE quality 
assurance audit in January 2000.
    Corrective actions were implemented and verified in mid-
2000. DOE conducted a followup quality assurance audit in 
February 2001 and concluded that the USGS had made improvements 
and was effectively implementing the quality assurance program.
    The e-mails themselves did not suggest that any scientific 
measurements were falsified. However, because our quality 
assurance requirements were not met, no matter how good Mr. 
Hevesi's work products and modeling may be, these products 
cannot be used in the licensing proceeding without re-
verification or replication of the specific work.
    Fortunately, our regulator, the Nuclear Regulatory 
Commission, has a procedure on how to deal with information 
that has been qualified through other procedures. That is NRC 
NUREG Document 1298, Qualification of Existing Data for High-
Level Nuclear Waste Repositories.
    We are currently evaluating the data in question using this 
protocol. Preliminarily, we believe there is ample 
corroborating data from non-USGS sources, including the State 
of Nevada itself and extensive peer review of the infiltration 
model that validates the technical basis for the project.
    In addition to the processes I have described above, the 
Department of Energy is taking other actions. First, an 
investigation is being conducted by the DOE Office of Inspector 
General.
    Second, the Secretary of Energy ordered a technical review 
of water infiltration modeling and analysis.
    Third, the Department is conducting a number of reviews 
into our records system to determine whether similar behavior 
has been exhibited by others.
    Over the next several months, summary reports of these 
evaluations will be issued.
    In summary, the Yucca Mountain Project is very important to 
the energy security of the United States. This project has been 
and will always be based on sound science and engineering.
    We are currently in a process to reevaluate data that has 
come under question on the infiltration model because our 
quality assurance requirements may not have been met. We will 
take whatever action is required to ensure that we have a sound 
technical basis going forward.
    Thank you.
    [The prepared statement of Mr. Arthur follows:]

    [GRAPHIC] [TIFF OMITTED] T4819.009
    
    [GRAPHIC] [TIFF OMITTED] T4819.010
    
    [GRAPHIC] [TIFF OMITTED] T4819.011
    
    [GRAPHIC] [TIFF OMITTED] T4819.012
    
    [GRAPHIC] [TIFF OMITTED] T4819.013
    
    [GRAPHIC] [TIFF OMITTED] T4819.014
    
    Mr. Porter. Mr. Arthur, thank you again. Thank you for 
being here.
    I would like to open by just asking you some basic 
questions as to why the Department of Energy has refused to 
provide for Congress documents other than those that we had 
asked for initially and why did you refuse to meet with us 
privately and why have other DOE officials chosen not to meet 
with our committee?
    Mr. Arthur. First of all, Mr. Chairman, we did provide 
information from the committee's request. I believe it was in 
late March. We did not want to interfere at the time or now 
with any ongoing IG investigations.
    We do have, as I believe was mentioned previously, our DOE 
reading room which was made available to your committee staff 
to review documents and additional information will be provided 
as we complete our reviews that are underway.
    Mr. Porter. The IG investigation, maybe you are not aware 
of this, but the IG has been very clear that your involvement 
and testifying and/or meeting with this committee would not 
interfere with their investigation whatsoever.
    But you chose not to meet with the committee and obviously 
advising other employees not to meet with the subcommittee.
    Mr. Arthur. I don't believe I personally advised any.
    Mr. Porter. Do you think anyone has?
    Mr. Arthur. I am not aware of that, sir.
    Mr. Porter. You are not aware that your employees----
    Mr. Arthur. I have talked once to, I believe, one of your 
staff and I believe we did offer a tour, a meeting and a visit. 
I am here today to answer questions you have.
    Mr. Porter. Why did you initially refuse to meet with us 
regarding the Yucca Mountain Project?
    Mr. Arthur. I believe I was on travel back there, but I 
mean I am here today to answer any questions you have.
    Mr. Porter. Regarding the documents that we have requested, 
this past Friday a memo appeared from DOE stating that if we 
want to see the documents we can come to DOE.
    It has been days, weeks and months since we requested this 
information. It is obvious to me that you have been very 
uncooperative. Why are you being uncooperative?
    Mr. Arthur. I believe the letter you are responding to, Mr. 
Chairman, is from our chief counsel at DOE and I would have to 
have him answer the question on that.
    Mr. Porter. Is he here today?
    Mr. Arthur. No, sir, he is not.
    Mr. Porter. OK. The IG investigation, why are you advising 
employees not to be interviewed if in fact the IG has agreed 
that it is not interfering with their investigation.
    Mr. Arthur. If my employees in similar and other 
investigations wish to be interviewed, I don't believe I have 
set any requirements that they cannot meet with you or members 
of your staff.
    Mr. Porter. To your knowledge, has anyone told the 
employees of DOE not to talk?
    Mr. Arthur. I am not aware of that, sir.
    Mr. Porter. You are not aware of that. OK. Let us go back 
to December 2004. Pursuant to documentation provided by DOE, 
the first knowledge of serious issues contained in e-mails 
occurred during the first week of December 2004. The 
investigation staff has learned that it was not until March 
11th that any specific action plan was taken by the Department 
to address these issues.
    How do you account for this gap in this timeline?
    Mr. Arthur. First of all, my records show it was early 
November. I had an independent review for a member of my office 
at DOE to take a look at the contractor information.
    It was in early November, I understand, that the 
information was first found. That information was first relayed 
to my office on March 11 and I took immediate action, as I said 
in my testimony.
    In the review that I had our office do, I could not find 
any purposeful holding of the information by the contractors. 
It was clearly wrong and it should have come to me soon.
    We are taking all the necessary action, since it was 
brought to me on March 11th.
    Mr. Porter. So, you discovered it in early November?
    Mr. Arthur. I did not. Members of the contractor's staff, 
Bechtel SAIC, did.
    Mr. Porter. And then they notified DOE in early November?
    Mr. Arthur. No. I had no notification until March 11th.
    Mr. Porter. So you did not receive notification. Did anyone 
at DOE receive notification prior to March 11th?
    Mr. Arthur. As I understand there was a telephone call. I 
do not--I apologize--have the exact date. I believe it was in 
December where an issue was discussed with representatives of 
our DOE staff. However, there was nothing talked about 
falsification or actually records, similar records of the e-
mails provided.
    Mr. Porter. What steps were taken then upon that initial 
phone call?
    Mr. Arthur. Nothing, nothing. Nothing was brought up about, 
you know, falsification or these kind of issues that would 
trigger the review that I did when it was brought to my 
attention on March 11th.
    Mr. Porter. The review and the information that you 
provided this committee, as you stated, was voluntarily 
provided although it was initiated by the State of Nevada by a 
lawsuit, correct, for this information to become public?
    Mr. Arthur. Well, first of all, our certification for the 
license support network, Mr. Chairman, it was denied last 
summer. It did require that inactive e-mails additionally be 
reviewed. It was during a review of those e-mails that our 
people had found it and it was on March 11th when I brought 
this information to the Inspector General and kicked off a 
number of our internal technical reviews.
    Mr. Porter. You say that a staff member was contacted. Who 
was that individual?
    Mr. Arthur. A staff member from DOE. I believe one of our 
attorneys, I don't remember which one; I will get that and 
provide that for the record, and possibly one contractor 
attorney were involved in that. I will have to provide the 
names, if I can, to supplement the record.
    Mr. Porter. That would be fine, thank you.
    Mr. Arthur. We will get that.
    Mr. Porter. This will be one of the largest public works 
projects in the history of the country. With that huge 
responsibility for the health and safety of millions of 
Americans, why did it take 7 years for DOE to figure out that 
there were some problems internally with these memos and some 
question regarding the possible falsification or even the 
science? Why did it take 7 years?
    Mr. Arthur. Well, first of all, we did not do random 
searches of e-mails back in that timeframe. However, as I did 
mention, our quality assurance program did do an audit in 
January 2000. It picked up many of the issues that were brought 
up in the e-mails, including non-availability of a field 
notebook, some issues associated with transparency and 
traceability and some issues with software.
    As I mentioned in my testimony, corrective actions were 
taken and our team, the Department of Energy came back and 
verified that those actions were closed out.
    Mr. Porter. It seems to me that throughout this process of 
trying to gather information there is always that statement, 
and you mentioned it this morning, that the NRC will decide 
whether the science is accurate.
    Isn't it DOE's responsibility to determine that?
    Mr. Arthur. Well, it is clearly ours. My point in making 
that, Mr. Chairman, is the fact that there are many levels of 
independent review outside the Department of Energy. I meant 
that the Department of Energy will ultimately have the hearings 
and rule on the license application.
    But yes, the Department of Energy will not submit a license 
application until this issue is resolved and we are sure that 
it meets the necessary requirements.
    Mr. Porter. You also mentioned that by putting it in 
perspective you are assuming that the e-mails amount to only a 
handful more than 10 million e-mails and they were exchanged 
over the course of this project.
    I must say that I disagree that your assertion that these 
e-mails deal with water infiltration in which it is again part 
of the very core argument that the DOE has approached the 
President and Congress about the suitability.
    As we talk about feasibility, you stated that you were 
aware of them in early 2000 and obviously didn't take any steps 
to correct them. Is that accurate?
    Mr. Arthur. What I meant, Mr. Chairman, you say early 2000, 
that is the quality assurance reviews.
    Mr. Porter. Well, I am just repeating what you just said.
    Mr. Arthur. In 2000 we were doing quality assurance reviews 
on a limited amount of U.S. Geological Survey products. Based 
on that we took the necessary corrective actions based on that 
audit.
    However, as I mentioned in my remarks, based on the 
preliminary review, and that will not be finalized until 
ongoing reviews are completed, we believe there is a sound 
technical basis for the site recommendation and draft license 
application.
    Mr. Porter. I have one more question, then I will turn it 
over to my colleague. I am a little confused. You said that Mr. 
Hevesi's work is technically feasible in one sentence and then 
claim that his products cannot be trusted today without re-
verification or replication.
    Even though Mr. Hevesi's work based on collaboration with 
other scientists, everyone knows that a chain is only as strong 
as its weakest link. How can you on one hand say it is OK and 
on the other hand say it is not?
    Mr. Arthur. I mentioned, Mr. Chairman, that we are using a 
Nuclear Regulatory guide to look at the technical validity of 
the information that Mr. Hevesi created, and that was the 
moisture infiltration.
    Based on a combination of corroborative studies, as well as 
other external peer reviews, we conclude the technical basis is 
there. However, in an NRC license process or for any license 
application that the Department of Energy of submits, we have 
to rely on the individuals and the following of quality 
assurance procedures.
    It is not just the technical products; it is following the 
proper procedures and quality to get there.
    Mr. Porter. Let me interrupt for a moment. Mr. Treadwell, 
are you still with us? Please know that it is OK. I know you 
have a plane to catch. I am not sure if he is listening in the 
other room. Please know it is OK.
    Mr. Arthur, let us go back to the timeline. From the time 
that you found out on March 11th?
    Mr. Arthur. That is correct, yes.
    Mr. Porter. And I expect you are answering only for your 
knowledge; not for anyone else in the organization. What is the 
timeline? What happened from that point forward? What did you 
do?
    Mr. Arthur. On the 11th, and I want to verify that was a 
Friday, I know it well, March 11th. I immediately got the 
information. I was briefed. I was actually first called the 
night before by my employees concerned, the manager. We met in 
my office the first thing the next morning.
    It took me about a very small amount of time to look at 
that, the significance of these e-mails. I immediately notified 
the Inspector General's regional office in Albuquerque, NM. At 
the same time I notified our Washington Department of Energy 
offices and the other contacts that I mentioned in my 
testimony.
    Mr. Porter. At what point then were employees interviewed 
regarding the situation?
    Mr. Arthur. As far as my own personnel, first of all, I 
have not conducted the interviews. Investigations are being 
done by the Inspector General's office. I am not involved in 
that.
    Mr. Porter. So that DOE is not doing it. It is the 
Inspector General?
    Mr. Arthur. It is the Department of Energy's Inspector 
General's office, an independent arm that actually does these 
reviews.
    Mr. Porter. DOE is not doing its own review? It is using 
the IG?
    Mr. Arthur. Let me just clarify. When you said 
investigations, I have not done any investigations. That is 
done by our Inspector General's office.
    What I did then, I think it was that Saturday or Sunday, 
met with our staff to say what does this mean and how do we 
start moving forward. So, we were working between our office 
and Las Vegas and Washington to determine a path forward.
    We started to scope out a series of technical reviews, 
first of all to look at the extent of information that was 
touched by these e-mails. So, we tried to determine how much 
data, how much models and other information.
    Second then, we wanted to start an approach to evaluate it 
and see does it have any impact on the technical basis of the 
site recommendation and license application.
    The third part of that review was to say, now with that, 
what corrective actions do we have to take. We are still in the 
process of outlining that path forward.
    Mr. Porter. Mr. Davis, do you have a question?
    Mr. Davis. Thank you very much, Mr. Chairman. I think that 
was actually where I was going to start was whether or not 
there has been any changes in the review of the quality 
assurance guidelines since these allegations have surfaced.
    Mr. Arthur. If I can just clarify, Mr. Davis, you are 
referring to the March date when e-mails came forward or do you 
want me to go back into the 1990's?
    Mr. Davis. After the e-mails came forward.
    Mr. Arthur. I will have to check and answer that, 
supplement the record. I am not aware. I mean we have had a 
revision to our quality assurance program, to our quality 
assurance requirements document, but I believe that was 
underway about or around the time this came up, but it was not 
caused by this issue.
    I will have to check and see if there was any other 
provisions we have made.
    Mr. Davis. Under the investigation that is underway has 
there been any report of findings that would give you cause to 
believe or to think that there might have been some 
falsification of some official documents and records by 
employees?
    Mr. Arthur. Again, I am not able to speak about what our 
Inspector General has found. On our side some of these issues 
such as earlier quality assurance reviews that I brought up, we 
found some of those kind of areas. But as far as any 
falsification, I have not found anything on our reviews to 
support that. Our IG will have to answer that question 
specifically.
    Mr. Davis. Would it be fair and accurate to suggest that 
you have an ongoing review and that perhaps there hasn't been 
enough time to determine what kind of changes might be 
necessary?
    Mr. Arthur. That is correct. The reviews are still 
underway. That is why I said the conclusions are very 
preliminary that I presented here today. Those reviews, we 
believe, will all be completed over the next several months.
    Mr. Davis. Mr. Chairman, I have no further question of the 
witness.
    Mr. Porter. Would you explain your involvement in the work 
plan that was posted on the office of Civilian Radioactive 
Waste Management Web site following this committee's hearing on 
April 5 and that was later removed by DOE that same week?
    Mr. Arthur. I and my staff created that plan. When I say 
staff, it was some members from my Department of Energy Office 
of Repository Development. Some of our contractors were going 
to help and review it.
    At the time, Mr. Chairman, we were trying to scope out an 
approach that would be reasonable and various lines of inquiry 
we followed to evaluate what impacts, if any, this causes to 
the project.
    Mr. Porter. In Pahrump, NV, in reference to a Las Vegas Sun 
article, June 7, NRC staff told data site in Yucca Mountain e-
mails is sound.
    So you testified, or someone testified, I guess it was you, 
that the net infiltration estimates are technically defensible 
in early June. Today you are telling that you still have 
ongoing studies.
    Which is it?
    Mr. Arthur. What I mentioned to the Nuclear Regulatory 
Commission in that meeting, Mr. Chairman, is the same thing I 
am bringing up today. These are preliminary conclusions. 
Preliminary conclusions indicate there is ample corroborating 
data and extensive peer review of infiltration models that 
provides the technical basis for the project.
    I will provide for the record a summary of those studies 
and documents that support that. This is not our final report, 
but I will provide to you the references by which we draw the 
conclusion, which include the State of Nevada, it includes the 
University of Connecticut, the Lawrence Berkeley Lab and a 
number of top institutions around the United States as well as 
the world.
    Mr. Porter. So, you are telling me that in this document is 
the answer to the questions that the subcommittee has asked 
since April?
    Mr. Arthur. What this will provide, Mr. Chairman, is that 
again preliminary information supports our preliminary 
conclusions that the technical basis is sound. Again, it comes 
down to the actual moisture infiltration rates that were 
generated by the U.S. Geological Survey and independent 
corroborating studies, not just in the State, but in the region 
and around the United States in dry climates that draw similar 
conclusions that those numbers are in the range.
    Again, it is about a 2 to 3 percent moisture infiltration 
rate that occurs based upon the total amount of precipitation 
that comes to the top of the mountain.
    Mr. Porter. Again, this is a study, but does it include the 
answers to our questions as a subcommittee that were presented 
on April 5th, I believe?
    Mr. Arthur. I don't believe this includes all answers. It 
is one piece of critical information and references supporting 
some of the answers.
    Mr. Porter. When will you be providing the answers to the 
questions the subcommittee requested as of April 5th?
    Mr. Arthur. I will have to get back to you, check with our 
people. As I mentioned, our reports will be done. I am doing 
our best to manage completion of all this. Those reports, as I 
said earlier, should be done within 2 months.
    We want to make sure of the technical accuracy and validity 
of everything. I stand by this that we are providing today and 
more information will be provided as it is available.
    Mr. Porter. Let me ask you this more specifically. Will we 
be seeing those documents within the next week, 6 months, 10 
years, 100,000 years? When will we be seeing an answer to our 
questions as a subcommittee?
    Mr. Arthur. I will have to go back and check the specific 
questions and get back to you specifically when the information 
is there.
    Mr. Porter. Who will you need to ask that question of?
    Mr. Arthur. I will check with the other members of my 
management in the Department of Energy.
    Mr. Porter. Who will make that decision?
    Mr. Arthur. I believe a lot of the answers, sir, were 
provided in our letter.
    Mr. Porter. Please answer my question. Who will make the 
decision regarding the release of information that the 
subcommittee requested. What individual will make that 
decision?
    Mr. Arthur. I will have to get back to you on that.
    Mr. Porter. Is it the Secretary?
    Mr. Arthur. It will probably be the Secretary or a senior 
manager from his staff.
    Mr. Porter. And who would those be, the senior managers of 
his staff?
    Mr. Arthur. I would say the Secretary of Energy will have 
to make a determination on when it will be provided.
    Mr. Porter. Thank you. I guess so the record reflects some 
of the things that we have asked is an organizational chart of 
employees and management structure, some very, very simple 
questions with names.
    We have asked some very technical questions. We have also 
asked some very basic ones. Is it a problem that you can't 
provide information because you don't have it available?
    Mr. Arthur. I will have to check and see what is available 
or not. I did not review the specific letter in the request. I 
apologize. I will get back to you on what we have, organization 
charts that we have.
    Mr. Porter. When will you get back to us?
    Mr. Arthur. I assume we will supplement the record to any 
questions in the immediate future.
    Mr. Porter. Regarding the specific questions that this 
subcommittee asked, when will you get back to us with an answer 
whether or not you will be providing these documents?
    Mr. Arthur. That will be answered by the Washington office. 
I will get back to you at that date, sir. I can't say any more 
right now.
    Mr. Porter. So, what you are telling me is that you have to 
talk to the Secretary's office to get this question resolved. 
Is that correct?
    Mr. Arthur. What I am doing and what I came prepared for 
today is to talk to you about the technical aspects of what we 
are doing. We are managing reviews out of our office in Las 
Vegas.
    The request for information, we will send that to 
Washington and Washington will make a decision when it is 
provided.
    As we mentioned earlier, we do have our reading room open. 
Documents are available there. I will check to get back to you 
on the other specific requests.
    Mr. Porter. Mr. Davis, do you have any additional 
questions?
    Mr. Davis. No, Mr. Chairman. Unfortunately, I am going to 
have to leave.
    Mr. Porter. Thank you.
    Mr. Davis. Thank you very much.
    Mr. Porter. Since the 1990's, the DOE implemented 
additional engineering safeguards at Yucca Mountain, not 
previously planned or budgeted. I think this is probably in 
your area of professionalism.
    Yucca Mountain not previously planned or budgeted for due 
to scientific findings by USGS and other contractors working on 
the project.
    If so, did this determination relate to the high flux or 
low flux debate?
    Mr. Arthur. I have to ask you to repeat that.
    Mr. Porter. OK. Since the 1990's, has DOE implemented 
additional engineering safeguards at Yucca Mountain not 
previously planned or budgeted for due to scientific findings 
by the USGS and other contractors working on the project?
    Mr. Arthur. Our approach, Mr. Chairman, on this project is 
a combination of both natural barriers and engineering barriers 
including the actual waste package and others to demonstrate 
the necessary compliance with the EPA standards.
    The design has evolved over time through the years on this 
project.
    Mr. Porter. If so, then, did this determination relate to 
the high flux or low flux debate?
    Mr. Arthur. I will have to get back specifically on Mr. 
Hevesi's comments earlier about what happened on high flux and 
low flux.
    Mr. Porter. You mentioned that you have a specific purview. 
This is in your purview. So, let me ask it again, did this 
determination relate to the high flux or low flux debate?
    Mr. Arthur. The current engineering and design and safety 
analysis we are providing and preparing in the license 
application meets the best scientific technical data and it is 
a combination of science and engineering design, again, as 
required under the Nuclear Waste Policy Act in 10 C.F.R. 63 for 
implementing this project.
    Mr. Porter. Our staff has learned that parallel studies 
were performed on various tests, some yielding conflicting 
results. How does DOE resolve scientific disputes within the 
project? What do you do when there is a dispute within the 
project?
    Specifically, please address the debate regarding the 
discovery of isotopes in Chlorine 36 molecules.
    Mr. Arthur. First of all, the Chlorine 36, in that 
particular area we had differing results between two credible 
institutions, the U.S. Geological Survey and Los Alamos 
National Laboratory.
    Currently at the site we are doing a third study. I believe 
that is being done by one of our institutions in the State of 
Nevada to determine what the numbers actually are.
    So in this you are always going to have, in a project of 
this kind of scientific challenge, you are going to have 
scientific debate. We do have a number of avenues for 
scientists to raise concerns, issues and we will resolve those 
issues when they are raised.
    Mr. Porter. As you know, this flux, low flux is a key part 
of the debate, the infiltration, the seepage. Since you have 
differences of opinion on this particular subject, explain to 
me again how you then come up with a third answer when you have 
two competing experts telling you two different findings.
    Mr. Arthur. Based on a number of reviews, and again in 
particular the Chlorine 36 is not my specific area of 
expertise, but we wanted to have a third party, our individuals 
from the Department of Energy and Bechtel SAIC and the labs 
looking at this decided to have an independent third party look 
at it and do a separate set of studies. So, those are underway 
and I believe we will have the results sometime later this 
year.
    Again, it shows our commitment to try to get to what the 
answer is.
    Mr. Porter. Unfortunately, your lack of cooperation does 
not state the same, providing information to the subcommittee. 
So, I would not agree that you are showing a commitment to the 
public.
    Regarding the quality assurance, is DOE primarily 
responsible for quality assurance guidelines?
    Mr. Arthur. Correct. We set the policy and requirements.
    Mr. Porter. What was USGS's role in that program?
    Mr. Arthur. Implementing those requirements per the 
interagency agreement of 1997 that I referenced earlier.
    Mr. Porter. How many delays in licensing have been 
attributed to quality assurance?
    Mr. Arthur. Delays in licensing? I need to better 
understand the question.
    Mr. Porter. Have there been any delays because of quality 
assurance?
    Mr. Arthur. We originally had a plan to submit a license 
application last year. That was delayed for a number of 
reasons, one the remand of the ETA standard to not getting the 
LSN license support network certified. At the time we did not 
have the license application ready to go and I believe we did 
delay it for the right reason.
    As I said earlier, we will make sure every quality 
assurance requirement and regulatory requirement including the 
necessary actions for this moisture infiltration are resolved 
before we submit that application.
    Mr. Porter. So, when we say quality assurance, we are 
talking about safety, correct, health and safety.
    Mr. Arthur. Quality assurance and safety are the same, yes.
    Mr. Porter. Thank you. A GAO study was published in April 
2004 regarding the Yucca Mountain quality assurance program and 
recommended several changes. Has DOE implemented any of these 
changes? If so, could you be specific?
    Mr. Arthur. First of all, in some of the findings that were 
made we disagreed. But we have been making significant 
improvements. I would like to address that. Some of the areas 
were that our corrective action program was not effective.
    A number of key issues were not in performance measures. I 
can tell you, Mr. Chairman, I personally meet on a regular 
basis with executives from the nuclear industry to benchmark 
this program against theirs.
    I believe right now we are having better effectiveness in 
the program of self-identification of issues, of implementing 
that through a corrective action and managing the similar 
processes you would see throughout the nuclear industry 
throughout the United States.
    Mr. Porter. I appreciate you expressing your confidence in 
the program and what you have improved upon, especially in the 
last 5 years. How does something like this happen that we are 
talking about today if you have this improved quality assurance 
program?
    Mr. Arthur. You are referring when something like this, the 
issue of moisture infiltration that we were talking about?
    Mr. Porter. Specifically, yes, infiltration, but also 
regarding the documents and the questions as to the science of 
Yucca Mountain and to the paramount issue regarding the safety 
of the site, and that is infiltration.
    Mr. Arthur. First of all, as I mentioned earlier, moisture 
infiltration is on the beginning of the old total system 
performance assessment and we believe, as I mentioned earlier, 
based on preliminary information, that the technical basis is 
sound, subject to concluding our studies.
    But as far as the quality assurance program, from when this 
project first started in the 1980's to today, we kept elevating 
the bar as the program matured. That is no different than what 
would occur in the nuclear industry for commercial operating 
reactors back in the 1970's and 1980's.
    With that, I can tell you, is some of the frustrations that 
scientists had in the late 1990's. We were consolidating our 
basic programs, standardized requirements and procedures.
    While most scientists, while there were some issues raised, 
did follow it, you know, this is the first case we have found 
of potential willful violation of the quality assurance 
principles.
    Mr. Porter. What appears on the face of the testimony today 
and the documents, it appears to be outright defiance for not 
only the quality assurance protocol, but the project management 
process as well. Is this a culture that was displayed in the 
past that is no longer there? Can you fill me in on that a 
little bit?
    Mr. Arthur. I sure can't speak to the culture of the past. 
But I did ask our people to search and say what kind of 
concerns were raised by Mr. Hevesi and others through our 
employee concerns, corrective actions, to others. I could not 
find in that any direct concerns that were raised.
    Mr. Porter. Has management historically condoned this type 
of activity?
    Mr. Arthur. I would never support this kind of activity. Do 
you mean violating quality assurance standards?
    Mr. Porter. Yes.
    Mr. Arthur. I would never support that.
    Mr. Porter. What steps do you take then once there has been 
the violation of quality assurance?
    Mr. Arthur. First of all, violation means non-compliance. 
If that issue comes up you do a review to see if that happened 
or not.
    In this particular case, as I mentioned, while the 
technical basis appears sound, it is the credibility of 
following--good science means not just following the scientific 
methodology, having the right technical credentials, but 
following established quality assurance procedures.
    Without all three we have to go back and independently, in 
our office, have our scientists review this information and 
remediate or in some cases replace it before it can be used in 
the license application.
    Mr. Porter. With the new and improved quality assurance 
program that you are referring to, what steps have you taken to 
make sure in the future that this doesn't happen again, that 
this doesn't occur, as far as the appearance that you have had 
employees who have snubbed their nose at quality assurance?
    So, what programs do you have in place now to prevent it 
from happening again?
    Mr. Arthur. Well, I can tell you, we advocate, we are 
trying to move in and be at the same culture that you would 
have in a nuclear operating reactor today, a safety-conscious 
work environment.
    We openly advocate, not just myself, but all managers in 
the program, an environment as an employee if you have any 
concerns raise it to your supervisor without any fear of 
retaliation. We like to get that issue raised.
    We also have an active employee concerns program for 
concerns raised. Also, we have hundreds of corrective actions 
that are raised in the system.
    We want those individuals, if there is an issue, to raise 
it so we can deal with it. So, we advocate that and we manage 
based on that principle.
    Mr. Porter. The subcommittee investigation staff has been 
advised that during this time period in question DOE placed 
intense pressure on contractors. They have heard that 
throughout their interviews working on the project to produce 
results and that DOE had a system in place whereby bonuses were 
awarded to contractors based on timelines of their submissions.
    Obviously, this is a make-it-work or make-it-fit schedule 
mentality that could potentially compromise the quality and 
integrity of the work.
    Please comment on this bonus system.
    Mr. Arthur. First of all, I will have to get specifics of 
what timeframe you are talking about. I can talk to the bonus 
system. I assume you are meaning the contract.
    Mr. Porter. Well, do you have a bonus system in place?
    Mr. Arthur. What we have right now with the Bechtel SAIC, 
which is our management operating contractor, is a performance-
based incentive contract. With that it sets various quality 
requirements that have to be achieved before payments occur.
    Mr. Porter. Were any bonus incentives, to your knowledge, 
offered to USGS to do scientific studies in the QA procedures?
    Mr. Arthur. I will have to check. I am not aware of that. 
Bonus incentives? I mentioned that we paid over $300 million to 
date. You were saying some kind of incentive financially to do 
something?
    Mr. Porter. Specifically, were there any bonus incentives 
offered to USGS to do scientific studies?
    Mr. Arthur. Other than the budgets that I said we paid 
yearly, I am not aware of anything and I will have to check.
    Mr. Porter. Then I guess this is within your purview, were 
any bonuses actually awarded to contractors? Was that the $3 
million you were talking about for timely completion?
    Mr. Arthur. Let me go back if I can. I said we paid over 
$300 million to the U.S. Geological Survey.
    Mr. Porter. I am sorry. I misspoke. And independent 
contractors?
    Mr. Arthur. The contractor, Bechtel SAIC, and prior to them 
it was----
    Mr. Porter. TRW?
    Mr. Arthur. TRW, yes, sir. I am not aware. I mean there 
were payments, but I would have to supplement the record with 
the exact amount. But I can tell you in today's environment the 
payments won't be incurred unless the quality requirements and 
schedule are achieved.
    Mr. Porter. In this article I referred you to earlier where 
you testified in Pahrump in June 7 you were quoted as saying 
the data in question will not be used in DOE's upcoming request 
for a NRC license to open and operate a nuclear waste 
repository at Yucca Mountain. When was that determination made?
    Mr. Arthur. That is based on a newspaper quote?
    Mr. Porter. Las Vegas Sun. Actually, it was the Associated 
Press that quoted you.
    Mr. Arthur. I just have to look at statements versus what I 
said. The intent is that we are going, as I mentioned earlier, 
even though preliminary results show the technical basis was 
sound, we are going to have to have a group separate from Mr. 
Hevesi look at all that information and review it, re-validate 
it to make sure the necessary level of quality is there. And 
that corrective action is underway now.
    Some of it will be remediated. Some of it will be replaced 
or removed.
    Mr. Porter. June 7 you were quoted as saying the data in 
question will not be used in DOE's upcoming request for an NRC 
license to open and operate a nuclear waste repository at Yucca 
Mountain.
    In going with the substance of the hearing, you say the 
data in question will not be used in your application. Then why 
is it so critical to have Mr. Hevesi come back and do 
additional work to find the missing computer file?
    Mr. Arthur. First of all, the missing computer file was 
first brought up in a condition report. As I mentioned, when 
people see issues we want them to raise them.
    The system worked perfectly back in February of this year. 
A contractor under Sandia National Laboratories was trying to 
replicate the work. As I understand, they could not find the 
list of input files. Based on that, Bechtel SAIC was working 
with the USGS to try to get that information.
    We allowed, and I concurred in only 40 hours of work to 
recover those files and those files only. That is the only work 
that was authorized.
    Mr. Porter. Mr. Arthur, we have numerous questions yet to 
be answered, of course, those we requested in early April. We 
have additional questions that I would like to ask that you 
respond to.
    I also would like to ask that you meet with my staff in the 
next week to 2 weeks, barring any unusual circumstances. We 
would appreciate if you would agree to do that.
    Mr. Arthur. I will do that.
    Mr. Porter. Again, we want to say thank you for your being 
here today. We appreciate your testimony, but I will tell you 
that it is unfortunate for the public that the Department of 
Energy, whether it be based on not having the information or 
unwillingness to provide the information or a simple arrogance 
to the process, has chosen not to meet with our staff.
    Had those meetings taken place we may not have to be here 
today. I am extremely disappointed. In fairness to all those 
strong, hardworking, quality folks at DOE, I think you have 
done a disservice to all those employees that represent you 
across the country because there is the appearance that you are 
hiding information from this committee; there is an appearance 
that you are hiding information from the American people.
    I am extremely disappointed that someone in your 
organization has advised your employees not to meet with the 
U.S. Congress to answer questions.
    As I stated earlier, we communicate frequently with the 
Inspector General's office. It is a part of our process.
    Again, I cannot state it strongly enough. I am extremely 
disappointed. You have a responsibility to the American people 
and I believe that, again, either you are hiding something or 
because of a culture in the organization you don't have the 
information that we need or you have just chosen not to 
cooperate under simple arrogance.
    I appreciate your being here today. I am sorry that you 
didn't meet with us privately as I had requested.
    We will continue our investigation. We still have numerous 
individuals that we will be interviewing. Our investigation, as 
has both the Department of Interior and Department of Energy's 
Inspector General has just begun.
    In many respects we are going to continue this. I will be 
honest with you, enough is enough. It is time for the American 
people, as even Mr. Hevesi says, we need more public 
involvement in this process and that is what we are going to 
have happen.
    I thank you for being here. We will adjourn the meeting.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]
    [The prepared statements of Hon. Harry Reid and Hon. John 
Ensign, and Hon. Jim Gibbons, and additional information 
submitted for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T4819.015

[GRAPHIC] [TIFF OMITTED] T4819.016

[GRAPHIC] [TIFF OMITTED] T4819.017

[GRAPHIC] [TIFF OMITTED] T4819.018

[GRAPHIC] [TIFF OMITTED] T4819.019

[GRAPHIC] [TIFF OMITTED] T4819.020

[GRAPHIC] [TIFF OMITTED] T4819.021

[GRAPHIC] [TIFF OMITTED] T4819.022

[GRAPHIC] [TIFF OMITTED] T4819.023

[GRAPHIC] [TIFF OMITTED] T4819.024

[GRAPHIC] [TIFF OMITTED] T4819.025

[GRAPHIC] [TIFF OMITTED] T4819.026

[GRAPHIC] [TIFF OMITTED] T4819.027

[GRAPHIC] [TIFF OMITTED] T4819.028

[GRAPHIC] [TIFF OMITTED] T4819.029

[GRAPHIC] [TIFF OMITTED] T4819.030

[GRAPHIC] [TIFF OMITTED] T4819.031

[GRAPHIC] [TIFF OMITTED] T4819.032

[GRAPHIC] [TIFF OMITTED] T4819.033

[GRAPHIC] [TIFF OMITTED] T4819.034

[GRAPHIC] [TIFF OMITTED] T4819.035

[GRAPHIC] [TIFF OMITTED] T4819.036

[GRAPHIC] [TIFF OMITTED] T4819.103

[GRAPHIC] [TIFF OMITTED] T4819.104

[GRAPHIC] [TIFF OMITTED] T4819.105

[GRAPHIC] [TIFF OMITTED] T4819.106

[GRAPHIC] [TIFF OMITTED] T4819.107

[GRAPHIC] [TIFF OMITTED] T4819.108

[GRAPHIC] [TIFF OMITTED] T4819.047

[GRAPHIC] [TIFF OMITTED] T4819.048

[GRAPHIC] [TIFF OMITTED] T4819.049

[GRAPHIC] [TIFF OMITTED] T4819.037

[GRAPHIC] [TIFF OMITTED] T4819.038

[GRAPHIC] [TIFF OMITTED] T4819.039

[GRAPHIC] [TIFF OMITTED] T4819.050

[GRAPHIC] [TIFF OMITTED] T4819.051

[GRAPHIC] [TIFF OMITTED] T4819.052

[GRAPHIC] [TIFF OMITTED] T4819.053

[GRAPHIC] [TIFF OMITTED] T4819.054

[GRAPHIC] [TIFF OMITTED] T4819.055

[GRAPHIC] [TIFF OMITTED] T4819.056

[GRAPHIC] [TIFF OMITTED] T4819.057

[GRAPHIC] [TIFF OMITTED] T4819.058

[GRAPHIC] [TIFF OMITTED] T4819.059

[GRAPHIC] [TIFF OMITTED] T4819.060

[GRAPHIC] [TIFF OMITTED] T4819.040

[GRAPHIC] [TIFF OMITTED] T4819.041

[GRAPHIC] [TIFF OMITTED] T4819.042

[GRAPHIC] [TIFF OMITTED] T4819.043

[GRAPHIC] [TIFF OMITTED] T4819.044

[GRAPHIC] [TIFF OMITTED] T4819.045

[GRAPHIC] [TIFF OMITTED] T4819.046

[GRAPHIC] [TIFF OMITTED] T4819.061

[GRAPHIC] [TIFF OMITTED] T4819.062

[GRAPHIC] [TIFF OMITTED] T4819.063

[GRAPHIC] [TIFF OMITTED] T4819.064

[GRAPHIC] [TIFF OMITTED] T4819.065

[GRAPHIC] [TIFF OMITTED] T4819.066

[GRAPHIC] [TIFF OMITTED] T4819.067

[GRAPHIC] [TIFF OMITTED] T4819.068

[GRAPHIC] [TIFF OMITTED] T4819.069

[GRAPHIC] [TIFF OMITTED] T4819.070

[GRAPHIC] [TIFF OMITTED] T4819.071

[GRAPHIC] [TIFF OMITTED] T4819.072

[GRAPHIC] [TIFF OMITTED] T4819.073

[GRAPHIC] [TIFF OMITTED] T4819.074

[GRAPHIC] [TIFF OMITTED] T4819.075

[GRAPHIC] [TIFF OMITTED] T4819.076

[GRAPHIC] [TIFF OMITTED] T4819.077

[GRAPHIC] [TIFF OMITTED] T4819.078

[GRAPHIC] [TIFF OMITTED] T4819.079

[GRAPHIC] [TIFF OMITTED] T4819.080

[GRAPHIC] [TIFF OMITTED] T4819.081

[GRAPHIC] [TIFF OMITTED] T4819.082

[GRAPHIC] [TIFF OMITTED] T4819.083

[GRAPHIC] [TIFF OMITTED] T4819.084

[GRAPHIC] [TIFF OMITTED] T4819.085

[GRAPHIC] [TIFF OMITTED] T4819.086

[GRAPHIC] [TIFF OMITTED] T4819.087

[GRAPHIC] [TIFF OMITTED] T4819.088

[GRAPHIC] [TIFF OMITTED] T4819.089

[GRAPHIC] [TIFF OMITTED] T4819.090

[GRAPHIC] [TIFF OMITTED] T4819.091

[GRAPHIC] [TIFF OMITTED] T4819.092

[GRAPHIC] [TIFF OMITTED] T4819.093

[GRAPHIC] [TIFF OMITTED] T4819.094

[GRAPHIC] [TIFF OMITTED] T4819.095

[GRAPHIC] [TIFF OMITTED] T4819.096

[GRAPHIC] [TIFF OMITTED] T4819.097

[GRAPHIC] [TIFF OMITTED] T4819.098

[GRAPHIC] [TIFF OMITTED] T4819.099

[GRAPHIC] [TIFF OMITTED] T4819.100

[GRAPHIC] [TIFF OMITTED] T4819.101

[GRAPHIC] [TIFF OMITTED] T4819.102

                                 <all>

</pre></body></html>
